United States Court of Appeals for the
District of Columbia Circuit
No. 19-5090
September Term, 2019
Filed On: June 23, 2020
EAGLE TRUST FUND, ET AL.,
APPELLANTS
V.

UNITED STATES POSTAL SERVICE AND MEGAN J.
BRENNAN, IN HER OFFICIAL CAPACITY AS POSTMASTER
GENERAL,
APPELLEES
Appeal from the United States District Court
for the District of Columbia
(No. 1:17-cv-02450)
Before: TATEL and RAO, Circuit Judges, and
SILBERMAN, Senior Circuit Judge.
JUDGMENT
This appeal was considered on the record from
the United States District Court for the District of
Columbia and on the briefs of the parties. See FED.
R. APP. P. 34(a)(2); D.C. CIR. R. 34(j). The Court has
afforded the issues full consideration and has
determined that they do not warrant a published
opinion.
See D.C. CIR. R. 36(d). It is
ORDERED AND ADJUDGED that the
judgment of the district court be affirmed for the

1a

reasons stated in the memorandum accompanying
this judgment.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to
withhold issuance of the mandate herein until seven
days after resolution of any timely petition for
rehearing or petition for rehearing en banc. See FED.
R. APP. P. 41(b); D.C. CIR. R. 41(a)(1).
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Daniel J. Reidy
Deputy Clerk

2a

Eagle Trust Fund, et al. v. United States Postal
Service and Megan J. Brennan, in her official
capacity as Postmaster General
No. 19-5090
MEMORANDUM
This case arises from a mail dispute over a
change-of-address request filed by Eagle Forum (a
non-party) and opposed by plaintiffs Eagle Trust
Fund, John Schlafly, and Eagle Forum Education &
Legal Defense Fund. The U.S. Postal Service
concluded that Eagle Forum should be the recipient
of the contested mail. The plaintiffs then filed this
suit contending that the Service erred in three
principal respects: (1) the Service failed to engage in
reasoned decisionmaking, (2) the Service failed to
follow its own binding regulations, and (3) the
Service’s administrative review provisions violate
due process by not providing for reconsideration in
light of after-arising grounds or evidence. The
district court granted the Service’s motion to dismiss
for failure to state a claim. Eagle Tr. Fund v. U.S.
Postal Serv., 365 F. Supp. 3d 57, 63 (D.D.C. 2019).
The court reasoned that the plaintiffs have no cause
of action under which to bring their first two
challenges, and it concluded that the due process
challenge fails on the merits. Id. at 64–70. We affirm
largely for the same reasons.
Nearly all of the plaintiffs’ arguments on appeal
understandably aim at identifying an available cause
of action under which their first two challenges may
proceed. Review under the Administrative Procedure
Act, 5 U.S.C. §§ 500 et seq., is unavailable here in
light of 39 U.S.C. § 410(a), which states that, with
certain exceptions not relevant here, “no Federal law
dealing with public or Federal contracts, property,
works, officers . . . including the provisions of
chapters 5 and 7 of title 5, shall apply to the exercise
3a

of the powers of the Postal Service” (emphasis
added). See Mittleman v. Postal Regulatory Comm’n,
757 F.3d 300, 305 (D.C. Cir. 2014). The plaintiffs
argue that a few different sources of “non-APA and
pre-APA review” still remain for their first two
challenges. Appellants’ Br. at 23. But we have
explained that such “non-statutory” review is “quite
narrow,” and is available “only to determine whether
the agency has acted ‘ultra vires’—that is, whether it
has ‘exceeded its statutory authority.’” Mittleman,
757 F.3d at 307 (quoting Aid Ass’n for Lutherans v.
U.S. Postal Serv., 321 F.3d 1166, 1173 (D.C. Cir.
2003)).
Neither of the first two errors alleged by the
plaintiffs amounts to ultra vires action. As an initial
matter, neither challenge even mentions a statute,
much less alleges a violation of one. See J.A. at 64–
67. The Service’s purported lack of reasoned
decisionmaking stems from its failure to account for
the intent of senders who ambiguously address mail
to the “Eagle Forum” or to “Eagle Forum, Attn:
Phyllis Schlafly.” Id. at 64–65. That is a heartland
arbitrary-and-capricious challenge under the APA,
not a claim that the Service exceeded its statutory
authority.
Perhaps recognizing that none of our decisions
have placed an agency’s failure to follow its own
regulations in the “ultra vires” category, the
plaintiffs before the district court and on appeal
attempt to recast their second challenge as alleging a
violation of due process, which, they argue, itself
constitutes ultra vires action by the agency. But a
constitutional claim is separate from an ultra vires
claim. See Sears, Roebuck & Co. v.U.S. Postal Serv.,
844 F.3d 260, 265 (D.C. Cir. 2016) (collecting and
summarizing cases, none of which include
constitutional claims within ultra vires review).
Certain constitutional claims might—we don’t decide
4a

that here—be brought on their own where a statute
that forecloses APA review does not meet the
“heightened showing” we require of Congress to
preclude review of constitutional claims. Webster v.
Doe, 486 U.S. 592, 603 (1988). And our opinions to
that effect do not speak in terms of ultra vires
review. See, e.g., Gill v. U.S. Dep’t of Justice, 875
F.3d 677, 683–84 (D.C. Cir. 2017) (Tatel, J.,
concurring). So while the plaintiffs might be able to
bring a constitutional challenge and attempt to
argue that due process requires the Service to follow
its own regulations, they have not in fact done so
here. The relevant portion of the complaint says
nothing about due process or the Constitution, see
J.A. at 66–67, and we reject the plaintiffs’ attempt to
shoehorn their second challenge into the ultra vires
category on that basis.
The plaintiffs urge next that constitutional
avoidance should lead us to expand judicial review of
the Service’s decision beyond the limits set out in
Mittleman. Those limits, they argue, would in effect
unconstitutionally vest the judicial power in nonArticle III courts. But even if we thought such an
argument had merit, we are not free to sidestep
Mittleman. Again, in Mittleman we stated that nonstatutory review is available “only to determine
whether the agency has acted ultra vires,” 757 F.3d
at 307 (internal quotation omitted), a statement we
later described as Mittleman’s “holding,” Sears,
Roebuck & Co., 844 F.3d at 265. A party may bring
an actual Article III challenge in the future (unlike
the plaintiffs here), but one panel may not overrule
another even where a party argues that a prior
decision raises constitutional concerns. See United
States v. Eshetu, 898 F.3d 36, 37 (D.C. Cir. 2018).
The plaintiffs have not appealed the dismissal of
their challenge to the Service’s administrative review
provisions as violative of due process. Similarly,
5a

while the plaintiffs purport to appeal the denial of
their motion to alter the district court’s judgment,
they provide no argument as to how the district court
abused its discretion in applying the standards
governing Federal Rule of Civil Procedure 59(e). In
any event, the district court did not err because it too
was bound by Mittleman despite any constitutional
concerns. Finally, we will not address the plaintiffs’
Appointments Clause challenge, which they raised
for the first time on appeal. See Salazar ex rel.
Salazar v. Dist. of Columbia, 602 F.3d 431, 437 (D.C.
Cir. 2010).

6a

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
No. 1:17-cv-2450 (KBJ)
EAGLE TRUST FUND, et al.,
Plaintiffs,
v.
UNITED STATES POSTAL SERVICE, et al.,
Defendants.
MEMORANDUM OPINION
Over the course of fifty years, conservative political
activist Phyllis M. Schlafly created numerous
“educational, advocacy, and policy groups,” each of
which she branded with an “Eagle”-themed name.
(Am. Compl., ECF No. 20, ¶¶ 30, 31.) Among those
entities are plaintiffs Eagle Trust Fund (“ETF”) and
Eagle Forum Education & Legal Defense Fund
(“EFE-LDF”), as well as non-party Eagle Forum.
(See id. ¶¶ 2–3, 6, 31.) Each of Schlafly’s “Eagle”
organizations traditionally received its mail through
one central post-office box in Alton, Illinois;
significantly, much of this mail was addressed to
some variation of “Phyllis Schlafly, Eagle Forum,”
without regard to the particular “Eagle” entity the
correspondence actually concerned. (See Postal
Service Initial Decision (“Initial Dec.”), Ex. A to
Defs.’ Mot. to Dismiss, ECF No. 17-1, at 4.)1 This
centralized landing spot for the various entities’
correspondence changed in 2016, when the
Page-number citations to the documents that the parties
have filed refer to the page numbers that the Court’s electronic
filing system automatically assigns.
1

7a

organization known as Eagle Forum veered from the
flock under new leadership (due to a legal dispute),
and submitted a “change of address” form to the
United States Postal Service (“USPS”). (Id. at 6.)
Plaintiffs ETF and EFE-LDF have now combined
with John Schlafly—Phyllis Schlafly’s son, who
serves as a trustee or officer of ETF and EFE-LDF—
to file the instant lawsuit against USPS. (See Am.
Compl. ¶¶ 2–4.) Plaintiffs claim that ETF’s and EFELDF’s mail matter is being improperly diverted to
Eagle Forum’s new address, and they request
reversal of an administrative ruling upholding
USPS’s decision to honor Eagle Forum’s change-ofaddress request. (See id. ¶ 1.)
Before this Court at present is USPS’s motion to
dismiss Plaintiffs’ first amended complaint for lack of
subject-matter jurisdiction and for failure to state a
claim under Federal Rule of Civil Procedure 12(b)(1)
and (6). (See Defs.’ Mot. to Dismiss (“Defs.’ Mot.”),
ECF No. 21.) Because Plaintiffs’ complaint does
not identify a cause of action and otherwise fails
to state a claim for the purpose of Rule 12(b)(6),
as explained below, USPS’s motion will be
GRANTED, and Plaintiffs’ action will be
DISMISSED without prejudice. A separate Order
consistent with this Memorandum Opinion will
follow.

8a

I.

BACKGROUND2
A. BASIC FACTS
Phyllis Schlafly began leasing P.O. Box 618 in Alton,
Illinois in 1967, the same year that she created Eagle
Trust Fund. (See Initial Dec. at 4.) Most, if not all, of
her Eagle-themed organizations received mail at that
P.O. Box for almost fifty years, and as mentioned
above, said correspondence was typically addressed
to some variation of “Phyllis Schlafly, Eagle
Forum[.]” (Id.) This centralization of the different
organizations’ mail matter was not inherently
problematic because “[a]ll of Mrs. Schlafly’s
Eagle entities functioned in consonance” (Am.
Compl. ¶ 32), and Eagle Trust Fund provided
“back-office management, bookkeeping, and mail
services for the other organizations” (Initial Dec.
at 5). Thus, Eagle Trust Fund employees sorted
and distributed the mail that was delivered to
P.O. Box 618 (and a related street address) for all
of the “Eagle” entities, including Eagle Forum.
(See Am. Compl. ¶¶ 32, 38.)
In 2016, members of the organization known as
Eagle Forum clashed with Phyllis Schlafly, “based in
part on their holding political and social positions
dissonant with Mrs. Schlafly and the other Eagle
entities.” (Id. ¶ 33.) According to the amended
complaint, six Eagle Forum directors “secretly
agreed among themselves to try to take control” of
The facts recited herein are drawn from the
allegations in Plaintiffs’ complaint, as well as from the
written decisions in the underlying administrative
proceedings, which the complaint incorporates by
reference. See R.J. Reynolds Tobacco Co. v. USDA, 130 F.
Supp. 3d 356, 369–70 (D.D.C. 2015).
2

9a

Eagle Forum and “to remove Phyllis Schlafly and
John Schlafly from their longstanding authority
over [Eagle Forum’s] accounts and assets.” (Id. ¶¶
33, 34.) As a result, Mrs. Schlafly “formally and
expressly revok[ed] any and all existing licenses
that [Eagle Forum] held to use her name, image, and
likeness, as well as any intellectual property under
her control.” (Id. ¶ 36.) Ultimately, an Illinois state
court designated new, acting leadership for the Eagle
Forum organization. (See id. ¶ 37; Initial Dec. at 5–
6.)
Soon thereafter, Eagle Forum’s new leadership filed
a change-of-address request form with USPS,
thereby asking that any and all mail that was
addressed to “Eagle Forum” at P.O. Box 618 and the
related street address be forwarded to Eagle Forum’s
new place of business. (See Am. Compl. ¶ 38; Initial
Dec. at 6.) As a trustee of ETF and an officer and
director of EFE-LDF (see Am. Compl. ¶ 4), John
Schlafly opposed Eagle Forum’s change-of-address
request, leading to the administrative proceedings
that underlie the instant mail dispute. (See Initial
Dec. at 6); see also 39 C.F.R. Part 965 (governing
“Proceedings Relative to Mail Disputes”).
On September 15, 2017, an Administrative Judge
issued USPS’s Initial Decision regarding the mailmatter conflict. (See Initial Dec. at 3); see also 39
C.F.R. § 965.11. The Administrative Judge addressed
the question of “how mail addressed to Eagle Forum
at P.O. Box 618 and 322 State Street should be
delivered” (Initial Dec. at 6), and eventually
concluded that “Eagle Forum—and not Eagle Trust
[Fund] or Eagle Forum Education and Legal Defense
Fund—should control delivery of mail addressed to
10a

Eagle Forum” (id. at 8).3 In so finding, the
Administrative Judge analyzed
two key concepts . . . . First, as it applies to
all mail disputes, the sender’s intent is
paramount. Second, when a mail dispute
concerns how mail to an organization
should be delivered, the mail must be
delivered under the order of the
organization’s president or equivalent
official.
(Id. at 7 (internal citations omitted).)
As to the question of the sender’s intent, the
Administrative Judge found that “[t]he parties agree
that [the disputed] mail addressed to Eagle Forum
can actually be intended for any of Mrs. Schlafly’s
organizations, including Eagle Trust [Fund], Eagle
Forum, and Eagle Forum Education and Legal
Defense Fund[.]” (Id.) “Because of th[e] complex
organizational web [of Eagle-themed organizations
receiving mail at the same address], the sender’s
intent for items addressed to Eagle Forum is
difficult, if not impossible, to determine.” (Id. at 7–
8.) Thus, the Administrative Judge concluded
that it “becomes necessary to look elsewhere for
the evidence necessary to decide how the mail
should be delivered.” (Id. at 8.)
Turning to the second component of his inquiry, the
Administrative Judge found that “there is no dispute
that Eunie Smith is currently the acting president of
Eagle Forum, entitling her to direct delivery of mail
The Administrative Judge declined to resolve the question
of “who has the right to access and control P.O. Box 618,”
because he determined that he had “no authority to decide who
owns or controls” a P.O. Box. (See Initial Dec. at 6.)
3

11a

addressed to Eagle Forum.” (Id.) Although John
Schlafly had argued that “Eagle Forum really
means Eagle Trust [Fund] or Eagle Forum
Education and Legal Defense Fund[,]” and that
“the term Eagle Forum encompasses the entire
Schlafly network, all of which falls under Eagle
Trust
[Fund,]”
the Administrative
Judge
concluded that “[t]hese arguments fail because
the Domestic Mail Manual, which sets out the
procedures for mail delivery by the Postal
Service, provides that an addressee controls the
delivery of its mail, and that in the absence of a
contrary order the mail is delivered as
addressed.” (Id. (emphasis omitted) (citation
omitted).) “To allow either [ETF or EFE-LDF] to
control delivery of mail addressed to Eagle
Forum would conflict with the plain meaning” of
USPS regulations. (Id. at 8–9); see also 39 C.F.R.
§ 211.2(a)(2) (establishing that “[t]he regulations of
the Postal Service consist of[,]” among other things,
“[t]he Mailing Standards of the United States Postal
Service,
Domestic
Mail
Manual”).
The
Administrative Judge therefore determined that “all
mail being held, or hereafter received, addressed to
Eagle Forum at both P.O. Box 618, Alton, Illinois,
and 322 State Street, Suite 301, Alton, Illinois,
[should] be delivered as directed by Eunie Smith, the
acting president of Eagle Forum.” (Initial Dec. at 9.)
John Schlafly appealed the Administrative Judge’s
decision, see 39 C.F.R.§ 965.12, and a Judicial Officer
(“JO”) affirmed. (See Postal Service Decision (“Dec.
on Appeal”), Ex. B. to Defs.’ Mot. to Dismiss, ECF
No. 17-2, at 5 (concluding that, “[a]s the only mail
here in dispute is that directed to Eagle Forum
(or Eagle Forum, Attention: Phyllis Schlafly), and
12a

Eagle Forum has moved, it remains entitled to
redirect such mail to its present address”).) John
Schlafly argued “that the addressee in question—
Eagle Forum—‘may not file a change-of-address
order’ under [section 507.2.1.5 of the Domestic Mail
Manual] because the disputed mail was ‘originally
addressed to the addressee at an organization,
business, place of employment, or other affiliation’”
(id. at 4 (emphasis added))4; however, the JO
reasoned that
[b]y its own terms, the word ‘addressee’ in
[section] 507.2.1.5 means ‘an individual or
a business entity,’ not a combination of an
individual or business entity to whom the
mail piece is directed and the address to
which it is directed. Indeed, [section]
507.2.1.5 deals with a situation in which
mail is sent to ‘an organization, business,
place of employment, or other affiliation’
at which the individual or business entity
to whom it is directed (the addressee) no
longer conducts business or is employed.
That is why the second sentence of [the
provision] then allows the organization or
Section 507.2.1.5 states in relevant part “A change-ofaddress order cannot be filed or is restricted for the
following: . . . An addressee (e.g., an individual or a
business entity or other organization) may not file a
change-of-address order for mail originally addressed to
the addressee at an organization, business, place of
employment, or other affiliation. The organization or business
may change the address (but not the addressee’s name) on a
mailpiece to redirect it to the addressee.” Domestic Mail
Manual
§
507.2.1.5,
https://pe.usps.com/cpim/ftp/manuals/dmm300/507.pdf.
4

13a

business entity currently located at the
physical address written on the piece of
mail to ‘change the address (but not the
addressee’s name)’ on that mail to allow it
to be redirected to the addressee (that is,
to the individual or business entity whose
name appears on that piece of mail but
who no longer is located at that physical
address).
(Id. (emphasis in original).)
The JO continued: “[h]ere, the mail in dispute is
being sent to Eagle Forum at a physical address
(P.O. Box 618 and 322 State Street), not to Eagle
Forum at Eagle Trust Fund or another of the many
organizations and business entities also located
at that physical address.” (Id. (emphasis in
original).) Thus, the JO determined that the
Domestic Mail Manual provision that Schlafly
sought to use to reverse the Administrative Judge’s
underlying decision “does not apply and does not
prohibit the change of address sought by Eagle
Forum.” (Id.; see also id. at 5 (clarifying that
“[u]nless the face of a piece of disputed mail indicates
that it is directed to Eagle Forum and to another
business entity, for purposes of these mail delivery
regulations, only one addressee is involved”
(emphasis in original)).) In short, the JO determined
that, “if the words on a piece of mail identify only
Eagle Forum, Eagle Forum is the addressee which is
allowed to control delivery of that mail.” (Id.)
Consequently, the JO denied Schlafly’s appeal, and
the JO’s “final order [became] the final agency
decision[.]” 39 C.F.R. § 965.12.

14a

B. PROCEDURAL HISTORY
Seeking to reverse the JO’s decision upholding
USPS’s mail-routing determination, Plaintiffs filed a
complaint with this Court on November 13, 2017.
(See Compl., ECF No. 1, ¶ 1.)5 Plaintiffs
subsequently filed a four-count amended complaint,
in which they claim (1) that USPS failed to use
“reasoned decisionmaking” when resolving the
underlying mail dispute (see Am. Compl. ¶¶ 52–57,
58–60 (Counts I and II)); (2) that USPS failed to
follow its own regulations (see id. ¶¶ 61–67 (Count
III)); and (3) that USPS violated Plaintiffs’
constitutional right to due process (see id.¶¶ 68–71
(Count IV)) by “failing to provide for reconsideration,
based on after-arising grounds or evidence” (id. ¶ 69).
The instant pending motion is USPS’s motion to
dismiss Plaintiffs’ amended complaint. (See Defs.’
Mot.).
USPS’s motion makes several arguments. First,
USPS maintains that this Court lacks subject
matter jurisdiction over Plaintiffs’ claims. (See
Defs.’ Mot. at 12–21); see also Fed. R. Civ. P.
12(b)(1). Next, USPS asserts that Plaintiffs’
amended complaint fails to state a claim within the
In addition to USPS and Postmaster General Megan J.
Brennan (collectively, “Defendants” or “USPS”), the original
complaint also named Eagle Forum as a defendant. (See Compl.
at 1.) Eagle Forum filed a motion to dismiss on the ground that
venue was improper (see Mot. to Dismiss or Transfer Venue,
ECF No. 10), and USPS filed a separate motion to dismiss
(see Defs.’ Mot. to Dismiss, ECF No. 17). The Court issued
an order dismissing Eagle Forum from the action and
allowing Plaintiffs to amend their complaint. (See Order,
ECF No. 19, at 2–3.) It subsequently denied USPS’s motion
to dismiss as moot. (See Min. Order of Feb. 7, 2018.)
5

15a

meaning of Federal Rule of Civil Procedure 12(b)(6),
because it does not identify a source of law that
authorizes this Court to grant the relief Plaintiffs
request. (See id. at 22–25); see also Fed. R. Civ. P.
12(b)(6). Finally, USPS contends that Plaintiffs’
complaint lacks sufficient facts to support a plausible
claim that the agency violated the Constitution’s
guarantee of due process, as Plaintiffs have neither
“identif[ied] a protected property or liberty interest
under the Fifth Amendment[,]” nor “show[n] that
[USPS’s] procedures for resolving mail disputes
violate[] the Fifth Amendment’s guarantee of due
process.” (Defs.’ Mot. at 12.)
Plaintiffs oppose USPS’s dismissal motion on several
fronts. They argue, first, that the APA authorizes
review of USPS mail disputes. (See Pls.’ Mem. in
Supp. of Opp’n to Fed. Defs.’ Mot. to Dismiss (“Pls.’
Opp’n”), ECF No. 22-2, at 21; but see Am. Compl. ¶
17 (appearing to acknowledge that that “Congress
has exempted [USPS] from the [APA]”).) Plaintiffs
further argue that the Court is authorized to
engage in non-statutory (“ultra vires”) review of
USPS’s actions (see Pls.’ Opp’n at 22), and that the
Due Process Clause requires the agency to provide
aggrieved parties with the ability to seek
reconsideration of USPS decisions based on afterarising grounds or evidence (see id. at 37–38).
For the reasons explained below, this Court
concludes that, while Defendants’ jurisdictional
argument is misguided, Plaintiffs’ amended
complaint does not state a claim upon which relief
can be granted because it fails to identify a cause
of action that would permit the Court to grant the
requested relief. Furthermore, the complaint’s
allegations of fact, even if true, do not support a
16a

plausible claim that USPS violated Plaintiffs’
procedural
due
process
rights.
Therefore,
Defendants’ motion must be
granted, and
Plaintiffs’ claims must be dismissed pursuant to
Rule 12(b)(6).
II. APPLICABLE LEGAL STANDARD
Federal Rule of Civil Procedure 12(b)(6) authorizes
a party to move to dismiss a complaint on the
grounds that the complaint “fail[s] to state a claim
upon which relief can be granted[.]” Fed. R. Civ. P.
12(b)(6). To survive such a motion, the complaint
“must contain sufficient factual matter” to “‘state a
claim to relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). Significantly for present purposes, a
plaintiff who fails to show that the law authorizes
him to bring his lawsuit fails to state a claim upon
which relief can be granted. See Sacks v.
Reynolds Sec., Inc., 593 F.2d 1234, 1239 (D.C. Cir.
1978) (explaining that where a complaint does not
“sufficiently establish[] a federal cause of action[,]”
the “correct motion for dismissal” is that “made
pursuant to Rule 12(b)(6)”); Blake v. FBI, 298 F.
Supp. 3d 77, 78 (D.D.C. 2018) (“The existence of a
private right of action under federal law goes to
whether the plaintiff has stated a claim on which
relief can be granted.”). In other words, to plead a
viable claim, a plaintiff must point to a federal
statute or other basis of authority that allows him
to seek the relief he requests. See, e.g., El Paso
Natural Gas Co. v. United States, 750 F.3d 863,
887–88 (D.C. Cir. 2014) (affirming district court’s
dismissal on alternative ground that claim failed to
identify cause of action and thus had to be dismissed
17a

pursuant to Rule 12(b)(6)); Citizens for Responsibility
and Ethics in Washington v. Trump, 302 F. Supp. 3d
127, 133 (D.D.C. 2018) (dismissing claims pursuant
to Rule 12(b)(6) where plaintiffs “lack[ed] a cause of
action for its first three counts”). Moreover, it is
axiomatic that “[t]o state a claim for the denial of
procedural due process, a plaintiff must allege that
the government deprived her of a ‘”liberty or
property interest” to which she had a “legitimate
claim of entitlement,” and that “the procedures
attendant
upon
that
deprivation
were
constitutionally
[in]sufficient.”’”
New
Vision
Photography Program, Inc. v. District of Columbia,
54 F. Supp. 3d 12, 28 (D.D.C. 2014) (quoting Roberts
v. United States, 741 F.3d 152, 161 (D.C.Cir.2014))
(second alteration in original); see also id. at 31–32
(assuming that plaintiff alleged deprivation of
protected interest but dismissing complaint because
it failed to allege that the attendant procedures were
inadequate); Brown v. McHugh, 972 F. Supp. 58, 67
(D.D.C. 2013) (concluding that plaintiff failed to
identify a protected liberty or property interest and
dismissing case).
A court evaluating a Rule 12(b)(6) motion to dismiss
“generally does not consider matters beyond the
pleadings[,]” but the court “may consider the facts
alleged in the complaint, documents attached as
exhibits or incorporated by reference in the
complaint, or documents upon which the plaintiff’s
complaint necessarily relies even if the document is
produced not by the plaintiff in the complaint but
by the defendant in a motion to dismiss.” R.J.
Reynolds Tobacco Co. v. U.S.D.A., 130 F. Supp. 3d
356, 369– 70 (D.D.C. 2015) (internal quotation
marks, citations, and alteration omitted). “The
18a

[C]ourt must view the complaint in a light most
favorable to the plaintiff and must accept as true all
reasonable factual inferences drawn from wellpleaded factual allegations.” Busby v. Capital One,
N.A., 932 F. Supp. 2d 114, 133 (D.D.C. 2013).
“Although ‘detailed factual allegations’ are not
necessary to withstand a Rule 12(b)(6) motion to
dismiss for failure to state a claim, a plaintiff must
furnish ‘more than labels and conclusions’ or ‘a
formulaic recitation of the elements of a cause of
action.’” Id. (quoting Twombly, 550 U.S. at 555).
III. ANALYSIS
USPS has requested dismissal of the first three
counts of Plaintiffs’ amended complaint under
Federal Rule of Civil Procedure 12(b)(1), for lack of
subject-matter jurisdiction, and also under Rule
12(b)(6), for failure to state a claim. (See Defs.’
Mot. at 1.) Notably, the crux of USPS’s argument
with respect to both contentions relies on the
same purported defect in Plaintiffs’ complaint:
that Plaintiffs have failed to identify a source of
law authorizing the Court to review the
underlying USPS decision and grant Plaintiffs’
requested relief. (Compare Defs.’ Mot. at 12
(“[USPS’s] decision is not reviewable under the
APA or ‘non-statutory’ agency review. Therefore, this
Court lacks subject matter jurisdiction to decide
such claims.”) with id. (“[S]uch Counts must also
be dismissed for failure to state a claim under
Rule 12(b)(6) because no cause of action exists to
review
[USPS’s]
decision.”).)
As
USPS
acknowledges (see Defs.’ Mot. at 22 n.10), no less
an authority than the Supreme Court has
determined that whether or not a complaint
identifies a cause of action pursuant to which a
19a

plaintiff can seek relief is not a question of
whether the court has jurisdiction to hear the
case. See Air Courier Conf. of America v.
American Postal Workers Union AFL-CIO, 498
U.S. 517, 523 n.3 (1991); Bell v. Hood, 327 U.S.
678, 682 (1946) (“[I]t is well settled that the
failure to state a proper cause of action calls for a
judgment on the merits and not for a dismissal for
want of jurisdiction.”). As such, the Court will
treat USPS’s motion exclusively as a motion to
dismiss for failure to state a claim. See Fed. R.
Civ. P. 12(b)(6).
This motion must be granted for the reasons laid out
below. In short, Plaintiffs’ amended complaint does
not identify a cause of action either for its claim that
USPS failed to engage in reasoned decision making
when resolving the change-of-address dispute
(Counts I and II), or for its contention that the
agency failed to follow its own regulations (Count
III). Moreover, the amended complaint fails to
allege any facts that, if true, would give rise to a
reasonable
inference
that
USPS
violated
Plaintiffs’ constitutional right to due process (Count
IV).
A.
PLAINTIFFS HAVE NOT
IDENTIFIED A CAUSE OF ACTION
UNDER EXISTING LAW
1.
There Is No APA Review Of
USPS Decisions
Ordinarily, when no other adequate legal remedy
exists, the APA authorizes the claims against an
agency in federal court. See 5 U.S.C. § 704 (“Agency
action made reviewable by statute and final agency
action for which there is no other adequate remedy
20a

in a court are subject to judicial review.”); see also
Allentown Mack Sales and Serv., Inc. v. NLRB, 522
U.S. 359, 374 (1998) (“The [APA], which governs the
proceedings of administrative agencies and
related judicial review, establishes a scheme of
‘reasoned decisionmaking.’”
(quoting Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm
Mut. Auto. Ins. Co., 463 U.S. 29, 52 (1983))).
However, Congress has expressly exempted USPS
actions from review under the APA, with limited
exceptions. See 39 U.S.C. § 410(a) (stating that, with
certain exceptions, “no Federal law dealing with
public or Federal contracts, property, works, officers,
employees, budgets, or funds, including the
provisions of chapters 5 and 7 of title 5, shall apply
to the exercise of the powers of the Postal Service”);
see also Mittleman v. Postal Regulatory Comm’n, 757
F.3d 300, 305 (D.C. Cir. 2014) (“[T]he Postal Service
is exempt from review under the [APA].” (internal
quotation marks and citations omitted)). The D.C.
Circuit has established that “non-statutory” review
may be available “for certain Postal Service
decisions, notwithstanding the preclusion of APA
review under 39 U.S.C. § 410(a).” Mittleman, 757
F.3d at 307. But that review is limited: “It is
available only to determine whether the agency has
acted ultra vires—that is, whether it has exceeded its
statutory authority.” Id. (internal quotation marks
and citations omitted).
This all means that the claims in Plaintiffs’ amended
complaint that request that USPS’s decision be
reversed by this Court because USPS failed to
engage in “reasoned decisionmaking” concerning the
change-of-address dispute and thus that the agency’s
decision should be reversed by this Court (see, e.g.,
21a

Am. Compl. ¶ 57) seek relief that is not authorized
by law. To be sure, Plaintiffs have taken care not to
cite the APA specifically in the text of their amended
complaint, but their core contention that “USPS’s
administrative order fails to meet the standard for
reasoned
decisionmaking
and
is
arbitrary,
capricious, an abuse of discretion[ and] not otherwise
in accordance with the law” (Id. ¶¶ 57, 60) is
unmistakably rooted in the APA’s primary provisions
(see 5 U.S.C. § 706(2)), such that Counts I and II
unquestionably rely upon the unavailable cause of
action that the APA establishes. Cf. Kivanc v.
Ramsey, 407 F. Supp. 2d 270, 277 (D.D.C. 2006)
(“The Court is ‘not bound by plaintiff’s
characterization of the action,’ and may examine
whether plaintiff is actually pleading a [different]
claim.” (quoting Maddox v. Bano, 422 A.2d 763, 765
(D.C. 1980)).
Plaintiffs have no good answer to the charge that
they are seeking to invoke a cause of action that
Congress has specifically removed from the arsenal
available to plaintiffs who are aggrieved by USPS
determinations. (See Defs.’ Mot. at 13.) Instead,
despite section 410(a), Plaintiffs breezily maintain
“that APA review [still] applies,” that “USPS’s
partial APA exemption does not preclude
traditional forms of pre-APA equitable review,”
and that “judicial review would exist here even if
Congress had intended § 410(a) to preclude
judicial review.” (Pls.’ Opp’n at 20 (emphasis in
original).)
None of these contentions is persuasive. First of all,
the suggestion that the express statutory
exemption in section 410(a) of Title 39 of the
United States Code is too narrow to pertain to
22a

claims arising in the context of the instant mail
dispute (see id. at 21) fails because the D.C.
Circuit has long considered that statutory provision
to be a broad exemption that shields USPS
determinations from the auspices of APA review,
see, e.g., Mittleman, 757 F.3d at 305 (reemphasizing
in the context of analyzing whether judicial review of
USPS decisions to close post offices is precluded
that “we have observed that the Postal Service is
exempt from review under the Administrative
Procedure Act” (internal quotation marks and
citation omitted)). Plaintiffs’ second argument—that
the APA should be set aside entirely, and the Court
should permit plaintiffs to rely on “traditional forms
of pre-APA equitable review” (Pls.’ Opp’n at 20
(emphasis in original))—ignores the fact that
Congress has specifically enacted a statute to provide
a catch-all cause of action for plaintiffs who seek to
challenge agency decisionmaking where none
otherwise exists (i.e., the APA), and where Congress
has further acted to preclude even APA review, it is
well established that no cause of action remains,
much less some undefined “traditional” equitable
remedy, see Carlin v. McKean, 823 F.2d 620, 623
(D.C. Cir. 1987) (explaining that, while “the
presumption of reviewability was a firmly rooted
principle of administrative law even before the APA
was enacted[,] . . . courts should [not] continue to
indulge a presumption of reviewability under the old
administrative law principles when Congress has
explicitly exempted an agency from the APA’s
coverage” (internal citations omitted)). Plaintiffs
struggle valiantly to establish that something akin to
“non-APA review in equity” exists (Pls.’ Opp’n at 22)
and can be the basis for their claims against USPS
23a

(see id. at 22–30), but this assertion finds no support
in law or in logic, and the mere suggestion plainly
defies the statutory scheme for administrative
review that Congress has carefully crafted.
Plaintiffs’ third, and final, contention is also easily
rejected. Based on inferences drawn from Leedom
v. Kyne, 358 U.S. 184 (1958), and Board of
Governors of the Fed. Reserve System v. MCorp
Financial, 502 U.S. 32 (1991), Plaintiffs insist
that “due process provides forms of review even in
the face of statutes that deny review.” (Pls.’ Opp’n.
at 31.) But these precedents do not support that
proposition. For one, neither case mentions “due
process.” Rather, Kyne stands for the proposition
that even where Congress has statutorily
precluded review of agency decisions, a plaintiff
may still bring a lawsuit challenging agency
actions “in excess of its delegated powers and
contrary to a specific prohibition in” a statute.
Kyne, 358 U.S. at 188. That is to say, ultra vires
review may still be available. In MCorp
Financial, the Supreme Court distinguished Kyne
because the statute in MCorp Financial
“expressly provide[d] MCorp with a meaningful
and adequate opportunity for judicial review[.]”
MCorp Financial, 502 U.S. at 43. Plaintiffs concede
that MCorp Financial thus has no independent
“relevance here[,]” but they interpret the two cases
together as meaning that even if the APA precludes
judicial review of USPS decisions, “review would
nonetheless be available under Kyne for want of any
other forum to review USPS’s action.” (Pls.’ Opp’n at
31.) It is true that “central to [the Supreme Court’s]
decision in Kyne was the fact that the Board’s
interpretation of the Act would wholly deprive
24a

the union of a meaningful and adequate means of
vindicating its statutory rights[,]” as the Supreme
Court explained in MCorp Financial. 502 U.S. at
43. But this does not mean that the Supreme
Court opened up any and all agency actions to
judicial review; rather, as stated above, the
Court recognized that ultra vires review of agency
action may be available in certain situations,
even if Congress otherwise intended to preclude
judicial review.
The bottom line is this: nothing that Plaintiffs assert
in the context of their opposition to Defendants’
motion to dismiss Counts I and II persuasively
demonstrates that either the APA or some other
form of pre-APA equitable relief is available as a
cause of action for the claims that Plaintiffs bring
here. Furthermore, Plaintiffs have done nothing to
support their corollary contention that this Court can
review these claims because the USPS has acted
“ultra vires” with respect to its resolution of the mail
delivery dispute (see Am. Compl. ¶¶ 57, 60; see also
Pls.’ Opp’n at 28), as explained below.
2.
Plaintiffs Have Not
Demonstrated Ultra Vires
Action On The Part Of USPS
Where APA review is precluded and no other
statutory basis for challenging USPS’s determination
regarding mail delivery exists, the only plausible
cause of action that Plaintiffs could theoretically
have against the USPS under the instant
circumstances is an ultra vires claim—i.e., a claim
that USPS acted outside of the authority granted to
it by Congress. See Mittleman, 757 F.3d at 307.
But the complaint at issue here contains no
allegations of fact that would support a finding
25a

that USPS acted ultra vires. Indeed, the D.C.
Circuit has previously considered the scope of ultra
vires review as far as USPS decisionmaking is
concerned, and has determined that it includes only
review of the agency’s position regarding “(1) a
straightforward question of statutory interpretation;
(2) a question concerning whether a regulation in the
[Domestic Mail] Manual was a valid exercise of
USPS’s authority; and (3) a question focusing on
whether a Postal Service decision was supported by
the agency’s contemporaneous justification or,
instead, reflected counsel’s post hoc rationalization.”
Sears, Roebuck & Co. v. USPS, 844 F.3d 260, 265
(D.C. Cir. 2016) (internal quotation marks and
citations omitted). None of the allegations contained
in Plaintiffs’ amended complaint involves any of
these issues, and in no other way do Plaintiffs
identify a grant of statutory authority that USPS’s
actions exceeded. (See generally, Am. Compl.)
Plaintiffs instead appear to assert that USPS used
flawed reasoning in coming to its decision
regarding the mail delivery dispute at issue here
and, by doing so, acted ultra vires. (See id. ¶¶ 53–
56; 59; Pls.’ Opp’n at 30.) But this patently
misunderstands the nature of valid ultra vires
claims. See Adamski v. McHugh, 304 F. Supp. 3d
227, 237 (D.D.C. 2015) (“[An] ultra vires claim
derives from the contention that the agency has
acted without the authority to do so, and it is based
on the inherent power of the federal courts ‘to
reestablish the limits on [executive] authority’
through judicial review.” (quoting Dart v. United
States, 848 F.2d 217, 224 (D.C. Cir. 1988)) (second
alteration in original) (emphasis added)); see also
Griffith v. Fed. Labor Relations Auth., 842 F.2d 487,
26a

492 (D.C. Cir. 1988) (“Even where Congress is
understood generally to have precluded review, the
Supreme Court has found an implicit but narrow
exception, closely paralleling the historic origins of
judicial review for agency actions in excess of
jurisdiction.”). Stated simply, a claim that an agency
acted ultra vires is a claim that the agency acted “in
excess of its delegated powers and contrary to a
specific prohibition in [an] Act[,]” Kyne, 358 U.S.
at 188, not that an agency’s authorized action was
imprudent or that, in validly exercising its judgment,
the agency reached the wrong result.
Here, Congress has plainly authorized USPS to
resolve disputes between parties regarding mail
delivery. See 39 U.S.C. § 401 (establishing that the
“General powers of USPS” include the power “to
adopt, amend, and repeal such rules and regulations
. . . as may be necessary in the execution of its
functions . . . [and] to have all other powers
incidental, necessary, or appropriate to the
carrying on of its functions or the exercise of its
specific powers”); see also 39 U.S.C. § 204
(creating the “Judicial Officer” position, which
“shall perform such quasi-judicial duties . . . as the
Postmaster General may designate”). And, notably,
Plaintiffs’ amended complaint does not contend
otherwise. Moreover, Plaintiffs have failed to point to
any federal statute that dictates the reasoning that
USPS must use in mail-dispute proceedings. In fact,
as explained above, Congress has expressly
exempted those USPS decisions that are issued in
the context of mail-dispute proceedings from judicial
review under the APA, i.e., from review of whether
the decisions are reasonable. See 39 U.S.C. § 410(a);
see also Mittleman, 757 F.3d at 305. Thus, it is clear
27a

to this Court that Plaintiffs’ contention that USPS’s
alleged
lack
of
reasoned
decisionmaking
constituted ultra vires action on the part of the
agency is not a plausible claim.6
3.
Plaintiffs Have Not Identified
A Statute Or Regulation That
Authorizes Federal Courts To
Require USPS To Adhere To
Its Own Regulations
In Count III of the complaint, Plaintiffs pivot from
the ‘lack of reasoned decisionmaking’ contention and
attempt to challenge USPS’s alleged “failure to
follow [USPS’s] prohibition on splitting mail
addressed to post office boxes[.]” (Am. Compl. at
15.) However, just as with the claims in Counts I
and II, Plaintiffs have not identified a source of law
that authorizes the Court to review any such agency
violation and grant the relief Plaintiffs seek here. In
other words, Plaintiffs have not pointed to any cause
of action that authorizes the Court to force USPS to
follow its own rules.
In their opposition brief, Plaintiffs assert that,
“because USPS’s position would violate [various]
constitutional provisions, the claims that Plaintiffs raise
indeed are ‘ultra vires’ claims in the manner that USPS
uses that term[.]” (Pls.’ Opp’n at 28; see also id.
(maintaining that USPS has acted ultra vires because,
“[e]ven if USPS followed the laws of Congress as USPS
understands those laws, that would not insulate USPS
from review based on the unconstitutionality of USPS’s
interpretation of those laws”)). Such a confused ‘hail Mary’
contention does not warrant a prolonged response. Simply
put, a plausible ultra vires claim pertains solely to the
assertion that an agency has transgressed the will of
Congress, not that its actions constitute a constitutional
violation.
6

28a

To be sure, Congress has authorized USPS to issue
regulations. See 39 U.S.C. § 401(2). And USPS has,
pursuant to that authority, promulgated various
regulations governing its own actions, including, for
example, Postal Operations Manual § 841.751—the
regulation that Plaintiffs contend USPS “fail[ed] to
follow[.]” (Am. Compl. ¶ 66); see also 39 C.F.R. §
211.2(a)(2) (identifying “the Postal Operations
Manual” as one of “[t]he regulations of the Postal
Service”). But even if the Court takes as true
Plaintiffs’ contention that USPS failed to follow its
own directives, Plaintiffs have identified no source of
law that would allow this Court to require USPS to
go back and conform its actions to the rules that
govern the agency’s conduct.
This is not to say that an agency is free to disregard
its own regulations. Cf. Friedler v. GSA, 271 F. Supp.
3d 40, 61 (D.D.C. 2017) (calling it “clear beyond cavil
that ‘an agency is bound by its own regulations’”)
(quoting Nat’l Envt. Dev. Ass’n’s Clean Air Project v.
EPA, 752 F.3d 999, 1009 (D.C. Cir. 2014)). Indeed, in
the ordinary case, the APA would provide the
legal vehicle for a plaintiff to contend that an
agency has violated applicable regulations, and
the Court would be authorized to vacate any
agency action that transgresses the agency’s own
prescriptions pursuant to that statute. See 5
U.S.C. § 706(2)(A); see also Auer v. Robbins, 519
U.S. 452, 459 (1997); Policy & Research, LLC v.
U.S. Dep’t of Health & Human Servs., 313 F.
Supp. 3d 62, 72 (D.D.C. 2018). But as has by now
been stated repeatedly, it is well-settled law that
APA
review
does
not
apply
to
USPS
determinations. See Mittleman, 757 F.3d at 307.
And Plaintiffs’ failure to point to any cause of
29a

action outside the APA that would allow the
Court to enjoin USPS to follow its own
regulations means that their request for relief
based on USPS’s alleged failure to abide by its
own regulations (Count III) must be dismissed.
B.
PLAINTIFFS HAVE NOT ALLEGED
FACTS THAT, IF TRUE, WOULD
STATE A PLAUSIBLE CLAIM
THAT USPS VIOLATED
PLAINTIFFS’ FIFTH AMENDMENT
RIGHT TO DUE PROCESS
In Count IV of their amended complaint, Plaintiffs
contend that “USPS’s administrative review
provisions violate due process” because they do not
“provide for reconsideration, based on after-arising
grounds or evidence.” (Am. Compl. ¶ 69.) Thus, the
amended complaint appears to attempt to make out
a claim that USPS violated Plaintiffs’ procedural due
process rights, in violation of the Fifth Amendment.
See U.S. Const. amend. V (“No person shall . . . be
deprived of life, liberty, or property, without due
process of law”). Presumably because Plaintiffs seek
only declaratory and injunctive relief, and “[t]here is
no question that a cause of action may be stated
under the procedural due process component of the
fifth amendment for equitable relief[,]” Harper v.
Blumenthal, 478 F. Supp. 176, 187 n.10 (D.D.C.
1979), USPS does not seek dismissal of Plaintiffs’
due process claim on the same grounds as their other
claims.
Instead, USPS argues that “Plaintiffs fail to identify
any constitutionally protected interest of which the
Postal Service’s procedures deprived them” and that
the procedures that USPS affords to aggrieved
parties—including representation by counsel, the
30a

opportunity to present evidence and argument, and
the ability to appeal— “more than comply with the
Constitution’s guarantee of due process.” (Defs.’ Mot.
at 24–25.)
To assess the sufficiency of the complaint’s Fifth
Amendment due process claim on the grounds that
Defendants’ motion raises, this Court must “apply a
familiar two-part inquiry”: it must determine
whether the facts alleged, if true, would establish (1)
that “plaintiffs were deprived of a protected interest,
and, if so,” (2) that they failed to “receive[] the
process they were due.” Barkley v. U.S. Marshals
Serv. Ex Rel. Hylton, 766 F.3d 25, 31 (D.C. Cir. 2014)
(internal quotation marks and citation omitted). This
task is easily accomplished here, for even if the
Court assumes (without deciding) that the
allegations of the amended complaint suffice to
establish that USPS deprived Plaintiffs of a
protected property interest in the disputed mail—
which is now being sent to Eagle Forum’s new
address rather than to the P.O. Box and street
address at which ETF and EFE-LDF receive mail—
Plaintiffs’ amended complaint alleges no facts
supporting their contention that they did not receive
“the process they were due.” Id.; (see generally Am.
Compl.) Indeed, it is well established that due
process requires that the deprivation of a
constitutionally protected interest must “be
preceded by notice and opportunity for hearing
appropriate to the nature of the case.”7 Id.
(quoting Cleveland Bd. of Educ. v. Loudermill,
470 U.S. 532, 542 (1985)). Moreover, a plaintiff
Plaintiffs do not claim that they received inadequate
notice. (See Am. Compl ¶¶ 68–71.)
7

31a

is not “entitled to perfect procedures or the
procedures of his choice.” Bagenstose v. District
of Columbia, 503 F. Supp. 2d 247, 257 (D.D.C.
2007). Notably, and as relevant here, “procedural
due process in an administrative hearing does not
always require all of the protections afforded a
party in a judicial trial.” Beverly Enters., Inc. v.
Herman, 130 F. Supp. 2d 1, 18 (D.D.C. 2000).
It is clear to this Court that Plaintiffs have come
nowhere near to alleging facts that would support a
plausible claim that USPS violated their procedural
due process rights. First, the amended complaint
contains no facts to support Plaintiffs’ claim that
USPS actually refused to provide for reconsideration
of the JO’s decision based on after-arising grounds or
evidence, or otherwise. (See generally Am. Compl.;
see also Defs.’ Mot. at 24 (claiming that Plaintiffs
“have never asked the Judicial Officer for
reconsideration” (emphasis altered)).) One would
expect a plaintiff who seeks to challenge an
agency’s refusal to provide a certain procedure to
allege facts that, if proven, would establish the
agency’s refusal. And the mere fact that the
agency regulations do not specifically afford such
a procedure (see Am. Compl. at 7) says nothing
about whether the agency would have accommodated
such a request under the circumstances presented
here. See Reno v. Flores, 507 U.S. 292, 301 (1993)
(explaining that “[t]o prevail in such a facial
challenge, respondents ‘must establish that no set of
circumstances exists under which the [regulation]
would be valid’” (quoting United States v. Salerno,
481 U.S. 739, 745 (1987)) (second alteration in
original)). This Court will not assume that USPS
would never allow for reconsideration simply because
32a

its regulations do not say otherwise. Cf. id. at 309
(refusing to “assume, on this facial challenge, that an
excessive delay will invariably ensue” where “there is
no evidence of such delay” and where “[r]espondents
point out that the regulations do not set a time
period within which the immigration-judge hearing,
if requested, must be held”).
Even if it sufficed for Plaintiffs to point to the
absence of a reconsideration provision in the
agency’s regulations, it is clear that the Due
Process Clause does not mandate any such process.
Plaintiffs have not cited any case that states that
the failure
of an agency to provide for
reconsideration after appeal is a due process
violation. Moreover, in similar cases, courts have
easily found the due process requirements of the
Constitution to be satisfied where various procedures
short of reconsideration are afforded to the parties
as part of an administrative review process. See,
e.g., Barkley, 766 F.3d at 32–33 (finding due
process requirements met where officer “terminated
for reasons of medical fitness” was first “given
the opportunity to supply” evidence to “neutral
decisionmakers[,]” even though no oral hearing was
held); Beverly Enters., 130 F. Supp. 2d at 19 (finding
due process requirements met in administrative
proceedings where “the plaintiff employed counsel,
took depositions from and cross examined” witnesses,
and “reviewed all documents considered by the
agency in its decision and presented its own exhibits
and witnesses to prove its case”); id. (citing case in
which “the court held that an administrative hearing
meets the main requirements of due process where
a party had the right to a neutral arbitrator, to be
represented by counsel,
to conduct cross33a

examination, present evidence and witnesses on its
own behalf and rebut evidence submitted by the
adverse party”).
In short, Plaintiffs’ claim that USPS violated their
constitutional right to due process clearly cannot
survive USPS’s motion to dismiss when Plaintiffs
offer no facts
to suggest that the requested
procedure was ever denied, and even so, merely
claim, without more, that due process requires
that USPS “provide for reconsideration.” (Am.
Compl. ¶ 69.)
IV. CONCLUSION
For the reasons stated above, Plaintiffs have failed to
identify a cause of action that would authorize this
Court to grant the relief they seek as to three of the
counts in their amended complaint, and have also
failed to allege facts that support a claim that
Defendants violated their constitutional right to
due process. Thus, Plaintiffs’ amended complaint
“fail[s] to state a claim upon which relief can be
granted[.]” Fed. R. Civ. P. 12(b)(6). Accordingly,
and as set forth in the accompanying Order,
Defendant’s motion to dismiss is GRANTED,
and Plaintiffs’ action is DISMISSED.
DATE: February 4, 2019

/s/
KETANJI BROWN JACKSON
United States District Judge

34a

From:

DCD_ECFNotice@dcd.uscourts.gov

Sent:

Wednesday, March 6, 2019 3:33 PM

To:

DCD_ECFNotice@dcd.uscourts.gov

Subject:

Activity in Case 1:17-cv-02450-KBJ
EAGLE TRUST FUND et al v. U.S.
POSTAL SERVICE et al Order on
Motion to Alter Judgment

This is an automatic e‐mail message generated by
the CM/ECF system. Please DO NOT RESPOND to
this e‐mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS***
Judicial Conference of the United States policy
permits attorneys of record and parties in a
case (including pro se litigants) to receive one
free electronic copy of all documents filed
electronically, if receipt is required by law or
directed by the filer. PACER access fees apply
to all other users. To avoid later charges,
download a copy of each document during this
first viewing. However, if the referenced
document is a transcript, the free copy and 30
page limit do not apply.
U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 3/6/2019 at
3:33 PM EDT and filed on 3/6/2019
Case Name:

EAGLE TRUST FUND et al v.
U.S. POSTAL SERVICE et al

Case Number:

1:17‐cv‐02450‐KBJ

Filer:
35a

WARNING: CASE CLOSED on 02/04/2019
Document Number: No document attached
Docket Text:
MINUTE ORDER. Pending before the Court is
Plaintiffs [28] Motion to Alter Judgment, which they
bring pursuant to Federal Rule of Civil Procedure
59(e). (See Pls. Mot. to Alter Judg., ECF No. 28, at 1.)
Plaintiffs maintain that the Court should vacate its
dismissal order because section 410(a) of Title 39 of
the United States Code is unconstitutional insofar as
this Court has interpreted it to bar review of United
States Postal Service (USPS) mail-dispute decisions
(see Pls. Mem. in Supp. of Mot. to Alter Judg., ECF
No. 28-1, at 4, 6); but, [a] Rule 59(e) motion is
discretionary and need not be granted unless the
district court finds that there is an intervening
change of controlling law, the availability of new
evidence, or the need to correct a clear error or
prevent manifest injustice[,] Firestone v. Firestone,
76 F.3d 1205, 1208 (D.C.Cir.1996) (internal
quotation marks and citation omitted). Plaintiffs
raised the same argument in their prior briefing (see
Pls. Oppn to Def.s Mot. to Dismiss, ECF No. 22-2, at
28 (arguing that USPSs vision of unfettered power
both to devise and to enforce postal policieseven
arbitrarilywould violate separation of powers
principles, which go to Plaintiffs liberty interests)),
and they have cited no change in law, new evidence,
clear error, or other circumstance that would
persuade the Court to revisit its judgment in light of
this recycled contention. Therefore, Plaintiffs [28]
motion is hereby DENIED. Signed by Judge Ketanji
Brown Jackson on 3/6/2019. (lckbj2)
1:17‐cv‐02450‐KBJ Notice has been electronically
mailed to:
Lawrence J. Joseph ljoseph@larryjoseph.com
Heather D. Graham‐Oliver
heather.graham‐oliver@usdoj.gov,

36a

reginald.rowan@usdoj.gov
Kathryn Victoria Long klong@salawus.com
1:17‐cv‐02450‐KBJ Notice will be delivered by other
means to::
James P. Sanders
SMITH AMUNDSEN LLC
120 S. Central Avenue
Suite 700
St. Louis, MO 63105‐1794
Jessica Powers
SMITHAMUNDSEN LLC
120 S. Central Avenue
Suite 700
St, Louis, MO 63105‐1794

37a

United States Court of Appeals for the
District of Columbia Circuit
No. 19-5090
September Term, 2019
1:17-cv-02450-KBJ
Filed On: August 28, 2020
Eagle Trust Fund, et al.,
Appellants
v.
United States Postal Service and Megan J. Brennan,
in her official capacity as Postmaster General,
Appellees
BEFORE: Srinivasan, Chief Judge; Henderson,
Rogers, Tatel, Garland, Griffith, Millett, Pillard,
Wilkins, Katsas, and Rao, Circuit Judges; and
Silberman, Senior Circuit Judge
ORDER
Upon consideration of appellants’ petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk
38a

JUDICIAL OFFICER

In the Matter of a Mail
Dispute Between
EAGLE FORUM
and
JOHN SCHLAFLY &
BRUCE SCHLAFLY

2101 Wilson Boulevard
Suite 600
Arlington Va 22201-3078
703-812-1900
Fax: 703-812-1901

September 15, 2017
P.S. Docket No.
MD 17-13

NOTICE OF RIGHT TO APPEAL
The attached Initial Decision may be appealed to
the Judicial Officer of the Postal Service within ten
(10) days from the date of receipt of the Initial
Decision. A Notice of Appeal containing a detailed
explanation of the grounds for the appeal may be filed
electronically
at
https://uspsjoe.justware.com/JusticeWeb or with the
Recorder, United States Postal Service, Suite 600,
2101 Wilson Boulevard, Arlington, VA 22201-3078
(see 39 C.F.R. § 965.12).
If no appeal is taken within the prescribed time,
the Initial Decision will become final unless the
Judicial Officer elects to review the decision on his
own initiative.
/s/
Alan R. Caramella
Administrative Judge

39a

JUDICIAL OFFICER

In the Matter of a Mail
Dispute Between
EAGLE FORUM
and
JOHN SCHLAFLY &
BRUCE SCHLAFLY

2101 Wilson Boulevard
Suite 600
Arlington Va 22201-3078
703-812-1900
Fax: 703-812-1901

September 15, 2017
P.S. Docket No.
MD 17-13

APPEARANCE FOR
EAGLE FORUM:

James P. Sanders, Esq.
Jessica Powers, Esq.
Smith Amundsen LLC

APPEARANCE FOR
JOHN AND BRUCE
SCHLAFLY:

Edward D. Greim, Esq.
Andrew A. Alexander, Esq
Graves Garrett, LLC

INITIAL DECISION
The parties to this mail dispute each claim the
right to direct delivery of mail addressed to Eagle
Forum at two addresses: P.O. Box 618 and 322 State
Street, Suite 301, Alton, Illinois. The parties also seek
a declaration of their respective rights for access and
control of P.O. Box 618. As provided for by the Postal
Operations Manual (POM) Section 616.21, the
dispute has been referred to the Judicial Officer for a
decision, and then assigned to me for an initial
decision. See 39 C.F.R. Part 965. Immediately after
the dispute was docketed, the Judicial Officer ordered
40a

the Alton, Illinois postmaster to hold all mail
addressed to Eagle Forum at both P.O. Box 618 and
322 State Street. In February 2017, the parties
agreed on a system for jointly collecting the mail
addressed to both locations, and they have been
following that system while they await a resolution of
this dispute.
FINDINGS OF FACT
1. Phyllis Schlafly formed the Eagle Trust Fund
(Eagle Trust) in 1967 to publish and distribute a
newsletter, to do research on political science and
national defense, to distribute educational materials,
and to take other actions deemed necessary by the
trustees (Schlafly, Exh. A). That same year, Ms.
Schlafly began leasing P.O. Box 618 in Alton, Illinois
(Schlafly, Exh. B).
2. Phyllis Schlafly set up many additional
organizations during her lifetime.1 Most, if not all, of
these organizations received mail addressed to
“Phyllis Schlafly, Eagle Forum” at P.O. Box 618,
including:
• Eagle Forum Education and Legal Defense
Fund (Schlafly, Exh. C at 7)
• Eagle Forum PAC (Schlafly, Exh. C at 7)
• Eagle Forum 501(c)(4) (Schlafly, Exh. D at 1,
2)
• Phyllis Schlafly Report (Schlafly, Exh. D at
2)
• Phyllis Schlafly’s American Eagles (Schlafly,
Exh. D at 3)
• Eagle Trust Fund (Schlafly, Exh. D at 3)
1

Ms. Schlafly died in September 2016 (Schlafly brief at 9).

41a

3. Some of these organizations, as well as others,
received mail addressed to their specific organization
at P.O. Box 618, including:
• Republican National Coalition for Life
(Schlafly, Exh. C at 8; Exh. D at 15)
• Eagle Trust Fund (Schlafly, Exh. D at 10)
• Phyllis Schlafly Eagles (Schlafly, Exh. D at
28)
4. Eagle Trust provides back-office management,
bookkeeping, and mail services for the other
organizations (Schlafly, Exh. U at ¶ 6). Additionally,
because of this complex web of organizations using the
same mailing address, many of which have similar
names, the organizations relied on Eagle Trust to sort
the incoming mail and ensure that it was properly
distributed to the correct organization (Schlafly, Exh.
G; see also Schlafly brief at 8, 12).
5. The parties involved in this dispute are three of
the many organizations started by Phyllis Schlafly:
• Eagle Trust, whose current trustees are two
of Ms. Schlafly’s sons, John and Bruce
Schlafly (Schlafly, Exh. U at ¶ 5).
• Eagle Forum Education and Legal Defense
Fund, which was incorporated as a non-profit
organization in 1981 (Schlafly, Exh. O).
• Eagle Forum, a 501(c)(4) organization, whose
current acting president is Eunie Smith
(Eagle Forum, Exh. A at 8).
6. In this dispute, Eagle Trust and Eagle Forum
Education and Legal Defense Fund are aligned
against Eagle Forum over the right to direct mail
addressed to Eagle Forum. These parties are also at
odds over access and control of P.O. Box 618. (See
Joint Statement of Issues in Dispute, June 19, 2017)
42a

7. As of September 2016, Ed Martin was the
President of Eagle Forum and John Schlafly was the
Secretary (Eagle Forum, Exh. K).
8. In October 2016, the Third Judicial Circuit
Court in Madison County, Illinois, issued an Order
suspending Edward Martin and John Schlafly from
their positions with Eagle Forum. Both Mr. Martin
and Mr. Schlafly were enjoined and restrained from
conducting any business on behalf of Eagle Forum or
holding themselves out as holding positions with
Eagle Forum. (Eagle Forum, Exh. A at 8).
9. The court then designated Eunie Smith as the
Acting President of Eagle Forum and Anne Cori as the
Acting Chairman of Eagle Forum (Eagle Forum, Exh.
A at 8).
10. In the wake of the Third Judicial Circuit’s
decision, Eagle Forum submitted a change of address
request to the Alton postmaster asking that all mail
addressed to 322 State Street be forwarded to Eagle
Forum’s new place of business on West 3rd Street
(Schlafly, Exh. C). John and Bruce Schlafly opposed
that request, leading to this dispute.
DECISION
Although the parties have several pending
lawsuits against each other in state and federal court,
they have identified two issues they want to resolve in
this proceeding: (1) who has the right to access and
control P.O. Box 618, and (2) how mail addressed to
Eagle Forum at P.O. Box 618 and 322 State Street
should be delivered. As discussed below, I am only
authorized to resolve one of these issues.
The purpose of a mail dispute proceeding at the
Judicial Officer Department is to determine which
party controls the delivery of mail sent to a particular
43a

name and address, not who owns or controls a post
office box. Postal Operations Manual (POM) § 616;
Webb and Webb, MD 17-53 (I.D. April 19, 2017)(citing
Oriental Shriners and Civic Partners, Inc., MD 13-168
(P.S.D. September 11, 2013)). Thus, although the
parties have spent considerable time and effort
addressing this question, I have no authority to decide
who owns or controls P.O. Box 618.
As to the second issue, two key concepts must be
considered in determining how mail addressed to
Eagle Forum should be delivered. First, as it applies
to all mail disputes, the sender’s intent is paramount.
Webb and Webb, MD 17-53 (P.S.D. May 10, 2017).
Second, when a mail dispute concerns how mail to an
organization should be delivered, the mail must be
delivered under the order of the organization’s
president or equivalent official.
Domestic Mail
Manual (DMM) § 508.1.5.1; Seaman and Breunig, MD
16-215 (P.S.D. October 28, 2016). Each of these
factors is discussed below.
Sender’s intent
The record establishes that Mrs. Schlafly
established many organizations before her death. The
record also establishes that until late 2016 or early
2017, those organizations all used both P.O. Box 618
and 322 State Street to send and receive mail.
Sometimes the incoming mail was addressed to a
specific organization, but more often it was simply
addressed to “Phyllis Schlafly, Eagle Forum.” The
parties agree that such mail addressed to Eagle
Forum can actually be intended for any of Mrs.
Schlafly’s organizations, including Eagle Trust, Eagle
Forum, and Eagle Forum Education and Legal
Defense Fund (Schlafly brief at 2, 8; Joint Status
Report and Request for Extension, March 27, 2017;
44a

P.O. Box 618 Mail Handling Protocol, February 24,
2017). Simply put, the sender’s intent often cannot be
determined until after the mail is opened. Thus both
before and after this dispute arose, Mrs. Schlafly’s
organizations developed a system to sort and
distribute the incoming mail after it was opened—a
system that apparently worked very well for many
years, or at least until the relationship between the
organizations soured in 2016. Because of this complex
organizational web, the sender’s intent for items
addressed to Eagle Forum is difficult, if not
impossible, to determine. It thus becomes necessary
to look elsewhere for the evidence necessary to decide
how the mail should be delivered. See e.g. Dwyer and
Barlow, MD 04-82 (I.D. July 23, 2004).
President or equivalent official
Here, in light of the Illinois state court decision of
October 2016, there is no dispute that Eunie Smith is
currently the acting president of Eagle Forum,
entitling her to direct delivery of mail addressed to
Eagle Forum. The Schlaflys try to complicate this
straightforward analysis by arguing that Eagle
Forum really means Eagle Trust or Eagle Forum
Education and Legal Defense Fund. They assert that
the term Eagle Forum encompasses the entire
Schlafly network, all of which falls under Eagle Trust.
They also assert—without any citation to the record—
that Eagle Forum Education and Legal Defense Fund
is often referred to as Eagle Forum (Schlafly brief at
7).
These arguments fail because the Domestic Mail
Manual, which sets out the procedures for mail
delivery by the Postal Service, provides that an
addressee controls the delivery of its mail, and that in
the absence of a contrary order the mail is delivered
45a

as addressed. DMM § 508.1.1.1. This provision,
including the term addressee, must be interpreted by
looking at its plain language and giving consideration
to its terms in accordance with their common
meaning. Seaman and Breunig, MD 16-215 (citing
Lockheed Corp. v. Widnall, 113 F.3d 1225, 1227 (Fed.
Cir. 1997)).
Applying this standard to DMM § 508.1.1.1 leads
to only one conclusion: Eagle Forum—and not Eagle
Trust or Eagle Forum Education and Legal Defense
Fund—should control delivery of mail addressed to
Eagle Forum. To allow either of those other two
organizations to control delivery of mail addressed to
Eagle Forum would conflict with the plain meaning of
DMM § 508.1.1.1.
The other arguments put forth by the John and
Bruce Schlafly fail for similar reasons. For example,
the fact that Eagle Trust is the oldest of Mrs.
Schlafly’s organizations does not negate the fact that
the disputed mail in this case is not addressed to
Eagle Trust. And while it is also true that Eagle Trust
has traditionally received mail on behalf of many (if
not all of) Mrs. Schlafly’s organizations, that too does
not negate the fact that the disputed mail in this case
is addressed to Eagle Forum, and not any of those
other organizations.
The remainder of the John and Bruce Schlafly’s
arguments are not relevant to the issues addressed in
this decision. Instead, as noted, the other arguments
focus on control of and access to P.O. Box 618. Thus,
regardless of who has paid for the P.O. Box in the past,
and regardless of who is currently paying for the P.O.
Box, and even if Eagle Forum surrendered any claim
to the P.O. Box, the fact remains that Eagle Forum is
46a

entitled to receive mail addressed to Eagle Forum.2
RECOMMENDATION
I recommend that the Judicial Officer issue an
order to the Alton Postmaster directing that all mail
being held, or hereafter received, addressed to Eagle
Forum at both P. O. Box 618, Alton, Illinois, and 322
State Street, Suite 301, Alton, Illinois, be delivered as
directed by Eunie Smith, the acting president of Eagle
Forum.
This decision only addresses how mail addressed
to Eagle Forum (or Eagle Forum, Attention: Phyllis
Schlafly) at P.O. Box 618 and 322 State Street, Alton,
Illinois should be delivered by the Alton Postmaster.
All other mail addressed to other Schlafly
organizations at either address should be delivered as
addressed.
This decision does not resolve any other legal
disputes between the parties. Further, it does not
decide who actually owns the contents of the disputed
mail. Hoeppner and Vollstedt, MD 08-251 (I.D.
October 16, 2008). Eagle Forum must continue to
work with the other Schlafly organizations to ensure
that mail addressed to Eagle Forum, but intended for
one of the other organizations, is promptly forwarded
to that organization. Finally, if a future court order
directs a different system for delivery of the mail,
postal regulations provide that the mail will be
delivered according to that order. POM § 616.3.
/s/
Alan R. Caramella
Administrative Judge
Because the ultimate answers to these questions are not
necessary to this decision, I do not make any conclusions
regarding them.
2

47a

48a

JUDICIAL OFFICER

In the Matter of a Mail
Dispute Between
EAGLE FORUM
and
JOHN SCHLAFLY &
BRUCE SCHLAFLY

2101 Wilson Boulevard
Suite 600
Arlington Va 22201-3078
703-812-1900
Fax: 703-812-1901

October 24, 2017
P.S. Docket No.
MD 17-13

APPEARANCE FOR
EAGLE FORUM:

James P. Sanders, Esq.
Jessica Powers, Esq.
Smith Amundsen LLC

APPEARANCE FOR
JOHN AND BRUCE
SCHLAFLY:

Edward D. Greim, Esq.
Andrew A. Alexander, Esq
Graves Garrett, LLC

POSTAL SERVICE DECISION
John and Bruce Schlafly appeal a September
15, 2017 Initial Decision issued by Administrative
Judge Alan R. Caramella. The Initial Decision
recommended that I order the Alton, Illinois
Postmaster to deliver the disputed mail as directed
by Eunie Smith, president of Eagle Forum, the other
party to this Mail Dispute. I affirm.1
Neither party contests the Initial Decision’s findings of
fact, and this Postal Service Decision assumes familiarity with
those facts.
1

49a

The parties stipulated that the issue to be
decided by this Mail Dispute is “How should mail
addressed to “Eagle Forum at (A) P.O. Box 618,
Alton, IL[¶]62002; and (B) 322 State Street, Suite
301, Alton, IL 62002 be delivered?”2 Much of the
Schlaflys’ appeal focuses on other business entities
that receive mail at those locations – that focus is
irrelevant to the stipulated issue before me. Mail
directed to business entities other than Eagle Forum
will continue to be delivered as addressed, as the
Initial Decision concluded.
As to the mail that is in dispute – mail solely
directed to Eagle Forum – the Initial Decision was
based primarily on Domestic Mail Manual (DMM) §
508.1.1.1, which provides that “[a]ddressees may
control delivery of their mail.” Concluding that
Eagle Forum is the addressee of mail sent to Eagle
Forum at P.O. Box 618, Alton, IL [¶] 62002 and 322
State Street, Suite 301, Alton, IL 62002, the Initial
Decision reasoned that Eagle Forum is permitted to
forward that mail to its new business location.
The Schlaflys argue, however, that this
interpretation of DMM § 508.1.1.1 conflicts with
DMM § 507.2.1.5. The latter provision states in
relevant part:

June 19, 2017 Joint Statement of Issues in Dispute. I see
no material distinction between “Eagle Forum” and “Eagle
Forum, Attention: Phyllis Schlafly.” The parties treated them
the same and, on appeal, the Schlaflys have not requested that
mail to “Eagle Forum, Attention: Phyllis Schlafly” should be
treated differently than mail to “Eagle Forum.” See, e.g., Initial
Decision at Finding 2, pages 5, 7; Schlaflys’ appeal at 2, 13.
“Eagle Forum” and its derivation are both included in this Mail
Dispute.
2

50a

A change-of-address order cannot be filed or
is restricted for the following:
An addressee (e.g., an individual or a
business entity or other organization) may
not file a change-of-address order for mail
originally addressed to the addressee at an
organization, business, place of employment,
or other affiliation. The organization or
business may change the address (but not
the addressee’s name) on a mailpiece to
redirect it to the addressee.
Specifically, the Schlaflys argue that the addressee
in question – Eagle Forum – “may not file a changeof-address order” under this provision because the
disputed mail was “originally addressed to the
addressee at an organization, business, place of
employment, or other affiliation.” I see no basis for
such a conclusion, which would render DMM §
508.1.1.1 meaningless in this context.
By its own terms, the word “addressee” in
DMM § 507.2.1.5 means “an individual or a business
entity,” not a combination of an individual or
business entity to whom the mail piece is directed
and the address to which it is directed. Indeed,
DMM § 507.2.1.5 deals with a situation in which
mail is sent to “an organization, business, place of
employment, or other affiliation” at which the
individual or business entity to whom it is directed
(the addressee) no longer conducts business or is
employed. That is why the second sentence of DMM
§ 507.2.1.5 then allows the organization or business
entity currently located at the physical address
written on the piece of mail to “change the address
(but not the addressee’s name)” on that mail to allow
it to be redirected to the addressee (that is, to the
51a

individual or business entity whose name appears on
that piece of mail but who no longer is located at that
physical address).
Here, the mail in dispute is being sent to
Eagle Forum at a physical address (P.O. Box 618 and
322 State Street), not to Eagle Forum at Eagle Trust
Fund or another of the many organizations and
business entities also located at that physical
address. Therefore, DMM § 507.2.1.5 does not apply
and does not prohibit the change of address sought
by Eagle Forum.
The
Schlaflys’
position
that
multiple
organizations should be considered as the addressee
for mail sent only to Eagle Forum incorrectly
interprets postal regulations. Unless the face of a
piece of disputed mail indicates that it is directed to
Eagle Forum and to another business entity, for
purposes of these mail delivery regulations, only one
addressee is involved. I agree with Eagle Forum
that, for purposes of DMM § 508.1.1.1, if the words
on a piece of mail identify only Eagle Forum, Eagle
Forum is the addressee which is allowed to control
delivery of that mail. In the absence of a piece of
mail identifying Eagle Forum and another business
entity as recipients, I will not infer a contrary intent
because Eagle Forum shared the same physical
mailing address with other business entities.
As the only mail here in dispute is that
directed to Eagle Forum (or Eagle Forum, Attention:
Phyllis Schlafly), and Eagle Forum has moved, it
remains entitled to redirect such mail to its present
address. After the Initial Decision was issued, Eagle
Forum’s president, Eunie Smith (see Findings 5, 9),
directed that all mail addressed to Eagle Forum at
P.O. Box 618, Alton, IL 62002, and 322 State Street,
52a

Suite 301, Alton, IL 62002 be delivered to Eagle
Forum’s current office at 200 W. 3rd Street, Suite
502, Alton, Illinois 62002. By separate Order, I will
so instruct the Alton Postmaster. None of the
alternative relief requested by the Schlaflys is
appropriate, and mail addressed to other entities at
P.O. Box 618 and 322 State Street, Suite 301 in
Alton, Illinois will be delivered as addressed.
The Schlaflys’ appeal is denied.
/s/
Gary E. Shapiro
Judicial Officer

53a

JUDICIAL OFFICER

2101 Wilson Boulevard
Suite 600
Arlington Va 22201-3078
703-812-1900
Fax: 703-812-1901

October 24, 2017
THE POSTMASTER AT: Alton, Illinois
RE: :In the Matter of a Mail
Dispute
Between
EAGLE FORUM
and
JOHN SCHLAFLY &
BRUCE SCHLAFLY
P.S. Docket No. MD 17-13

All mail currently being held or hereafter
received, addressed to Eagle Forum at P.O. Box 618,
Alton, IL 62002, and 322 State Street, Suite 301,
Alton, IL 62002 shall be delivered to Eagle Forum’s
current office at 200 W. 3rd Street, Suite 502, Alton,
Illinois 62002.
/s/
Gary E. Shapiro
Judicial Officer

54a

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
EAGLE TRUST FUND,
322 State Street, Ste 301
Alton, IL 62002-6135,
JOHN F. SCHLAFLY,
322 State Street, Ste 301
Alton, IL 62002-6135,
in his official capacity as
trustee of EAGLE TRUST
FUND,
and
EAGLE FORUM EDUCATION &
LEGAL DEFENSE FUND,
322 State Street, Ste 301
Alton, IL 62002-6135,
Plaintiffs,
v.
U.S. POSTAL SERVICE,
475 L’Enfant Plaza SW
Washington, DC 20260-2200,
and
MEGAN J. BRENNAN,
POSTMASTER GENERAL,
475 L’Enfant Plaza SW
Washington, DC 20260-2200,
in her official capacity,
Defendants.

Civil Action No.
1:17-cv-2450-KBJ

FIRST AMENDED COMPLAINT
FOR DECLARATORY
AND INJUNCTIVE RELIEF
Plaintiffs Eagle Trust Fund, John F. Schlafly, and
Eagle Forum Education & Legal Defense Fund seek
55a

declaratory and injunctive relief based on the
following allegations.
NATURE OF THE ACTION
1. Plaintiffs bring this action both (a) to reverse a
final order of the United States Postal Service
(“USPS”) that “mail currently being held or hereafter
received, addressed to Eagle Forum at P.O. Box 618,
Alton, IL 62002, and 322 State Street, Suite 301,
Alton, IL 62002 shall be delivered to Eagle Forum’s
current office at 200 W. 3rd Street, Suite 502, Alton,
Illinois 62002” (the “USPS Order”), and (b) to ensure
the delivery of mail addressed to “Eagle Forum” to the
intended recipient.
PARTIES
2. Plaintiff Eagle Trust Fund (“ETF”) is a trust
settled by the late Phyllis Schlafly under Illinois law
on June 2, 1967 – with amendments on or about May
10, 1996, and June 1, 2016 – and headquartered in
Alton, Illinois. Two of Mrs. Schlafly’s sons – plaintiff
John F. Schlafly and non-party Bruce S. Schlafly – are
ETF’s current trustees, and as such are the sole
members of ETF, an unincorporated association. ETF
was not a party to the administrative proceedings
before USPS, but is a real party in interest authorized
by District of Columbia law to sue in its own name to
enforce a substantive right to ETF’s mail under the
U.S. Constitution and federal law as the intended
ultimate recipient of some of the disputed mail.
3. Plaintiff Eagle Forum Education & Legal
Defense Fund (“EFc3”) is a non-profit Illinois
corporation headquartered in Saint Louis, Missouri,
and registered under §501(c)(3) of the Internal
Revenue Code. In addition to its Saint Louis
headquarters, plaintiff EFc3 also operates out of
56a

ETF’s office in Alton, Illinois, and maintains an office
in Washington, DC. EFc3 was not a party to the
administrative proceedings before USPS, but is a real
party in interest authorized by District of Columbia
law to sue in its own name to enforce a substantive
right to EFc3’s mail under the U.S. Constitution and
federal law as the intended ultimate recipient of some
of the disputed mail.
4. Plaintiff John F. Schlafly is a trustee of plaintiff
ETF and an officer and director of plaintiff EFc3;
plaintiff John Schlafly brings this suit in those official
capacities. Mr. Schlafly was a party to the
administrative proceedings before USPS and is the
intended ultimate recipient of some of the disputed
mail.
5. Defendant United States Postal Service
(“USPS”) is an independent establishment within the
executive department of the United States
government.
6. Eagle Forum (“EFc4”) – an Illinois non-profit
corporation based in Alton, Illinois, and registered
under §501(c)(4) of the Internal Revenue Code – was
a party to the administrative proceedings before
USPS. Although the initial complaint named EFc4 as
a defendant and requested relief against EFc4 with
respect to Plaintiffs’ mail diverted to EFc4 by the
federal defendants, this amended complaint drops
EFc4 as a defendant to cure EFc4’s assertion of
allegedly improper venue. If EFc4 intervenes in this
action, the “other relief as may be just and proper”
requested in Paragraph 72(D) shall include inter alia
the following relief against EFc4:
(a) Declaratory relief that EFc4 has a legal
obligation to turn over mail intended for plaintiffs ETF
or EFc3, or for any other related Eagle entities;
57a

(b) Declaratory relief that, for any mail received and
opened by EFc4 that was addressed to “Eagle Forum”
at any address and that includes a donation – whether
monetary or otherwise – that the donor intended as tax
deductible, the mail and donation were intended for
receipt by EFc3;
(c) Injunctive relief establishing a constructive trust
is created over all mail addressed to “Eagle Forum” at
ETF’s and EFc3’s addresses (currently, 322 State
Street and P.O. Box 618 in Alton, Illinois), but
received by EFc4 on or after the USPS Order’s
effective date through the final judgment of this
litigation, inclusive of any appeals; and
(d) Injunctive relief ordering EFc4 to perform and
submit to the Court and parties an accounting of all
mail addressed to “Eagle Forum” at ETF’s and EFc3’s
addresses (currently, 322 State Street and P.O. Box
618 in Alton, Illinois), but received by EFc4 on or after
the USPS Order’s effective date through the final
judgment of this litigation, inclusive of any appeals, as
well as any funds received by EFc4 during that same
period.
JURISDICTION AND VENUE
7. This action seeks judicial review of USPS’s
resolution of the underlying postal dispute and,
therefore, raises federal questions over which this
Court has jurisdiction pursuant to: 28 U.S.C. §§1331,
1361; the Acts of March 3, 1863, 12 Stat. 762, and
June 25, 1936, 49 Stat. 1921 (as amended); D.C. Code
§11-501; and this Court’s equity jurisdiction.
8. The United States has waived its sovereign
immunity for actions against USPS and for the relief
sought in Paragraph 72. See 39 U.S.C. §409. Further,
mandamus claims under 28 U.S.C. §1361 against a
named federal officer do not require a waiver of
58a

sovereign immunity.
9. Pursuant to 28 U.S.C. §1391(e)(1)(A), venue is
proper in the District of Columbia because all
defendants maintain offices within the District of
Columbia.
10. An actual and justiciable case or controversy
exists between the parties.
Justiciable Case or Controversy between the
Parties
11. As a direct consequence of USPS’s final
decision and order in the administrative proceedings,
Plaintiffs face the prospect of losing mail that senders
intended Plaintiffs to receive, including donations
that senders intended to benefit Plaintiffs.
12. Even assuming arguendo that defendant
EFc4 returned to plaintiff EFc3 all of the donations
that senders intended for EFc3 – including, but not
limited to, any donations that the sender intended as
tax-deductible donations – the delay in EFc3’s
receiving the donations would cost EFc3 accumulated
interest for the time during which the donated funds
would be deposited later than if EFc3 had received the
donations directly.
13. If the Court grants the relief requested in
Paragraph 72, Plaintiffs will receive the mail and
donations that the senders intended to benefit and
inform Plaintiffs.
14. Plaintiffs lack any other adequate remedy to
ensure their timely receipt of mail and donations that
the senders intended to benefit and inform Plaintiffs.
15. Because this Court has jurisdiction as a
threshold matter, the Declaratory Judgment Act, 28
U.S.C. §§2201-2202, provides this Court the power to
“declare the rights and other legal relations of any
59a

interested party…, whether or not further relief is or
could be sought.” 28 U.S.C. §2201.
16. Principles of administrative exhaustion do not
preclude participation by ETF or EFc3 both because
the organizations participated through their
respective trustees, officers, and directors and
because the participating trustees, officers, and
directors raised – or can raise – the issues that ETF
and EFc3 seek to raise.
Availability of Judicial Review
17. Although Congress has exempted USPS from
the Administrative Procedure Act, 5 U.S.C. §§551-706
(“APA”), see 39 U.S.C. §410(a), that exemption does
not remove USPS from non-APA judicial review.
Indeed, nonstatutory review of federal agency action
grew out of an action against USPS long before APA’s
enactment, Am. Sch. of Magnetic Healing v.
McAnnulty, 187 U.S. 94 (1902), which this Circuit has
recognized as “the font of the nonstatutory review
doctrine.” Trudeau v. FTC, 456 F.3d 178, 190 n.21
(D.C. Cir. 2006).
18. The general standard of review in non-APA
actions resembles the APA standard of review in
requiring reasoned decisionmaking to uphold an
agency, which is lacking where an agency action fails
to distinguish contrary agency precedent, fails to
follow agency rules, or fails to resolve the whole issue
properly before the agency.
19. Further, under this Court’s historic and
unique equity jurisdiction cited in Paragraph 7, equity
review is also available in this Court, see, e.g., Kendall
v. U.S. ex rel. Stokes, 37 U.S. (12 Pet.) 524, 580-81
(1838); Ganem v. Heckler, 746 F.2d 844, 851 (D.C. Cir.
1984), but would not be available in any other U.S.
60a

district court.
20. Notwithstanding the District of Columbia
Court Reorganization Act of 1970, Pub. L. No. 91-358,
84 Stat. 605 (1970) (“DCCRA”), this Court’s equity
jurisdiction survived DCCRA’s enactment, as
Congress indicated six years later in the legislative
history of the 1976 amendments to APA and federalquestion jurisdiction. H.R. REP. NO. 94-1656, at 15-16,
reprinted in 1976 U.S.C.C.A.N. 6121, 6136.
21. Because it requires “clear and manifest”
legislative intent to support repeals by implication,
Nat’l Ass’n of Home Builders v. Defenders of Wildlife,
551 U.S. 644, 662 (2007), it would require “clear and
manifest” evidence of congressional intent to repeal
this Court’s equity jurisdiction to argue that DCCRA
somehow repealed this Court’s equity jurisdiction for
federal matters, especially given that both Congress
and the D.C. Circuit have relied upon this Court’s
equity jurisdiction after DCCRA’s enactment.
LEGAL BACKGROUND
22. The Constitution empowers Congress “[t]o
establish Post Offices and post Roads.” U.S. CONST.
art. I, §8, Cl. 7. Under this authority, Congress
established USPS, 39 U.S.C. §§101-5605, with the
ability to sue and be sued, id. §§401(1), 409, and to
adopt and amend rules for its operations. Id. §401(2).
23. USPS has promulgated its rules of practice for
mail disputes at 39 C.F.R. part 965, which provide for
submission of disputes for an “initial decision” to a
“presiding officer,” id. §965.11, and an optional appeal
to the “Judicial Officer.” Id. §965.12. Moreover, there
are no provisions for seeking reconsideration based on
after-arising grounds or information: “The Judicial
Officer’s decision on appeal or his or her final order is
61a

the final agency decision with no further agency
review or appeal rights.” Id.
24. Unlike appellate decisions from Article III
courts, the Judicial Officer’s textual analysis to deny
an administrative appeal does not change the findings
in the presiding officer’s initial decision that underlies
the denied appeal: “If an appeal is denied, the initial
or tentative decision becomes the final agency decision
upon the issuance of such denial.” Id.
25. Under longstanding USPS precedents
stretching back to the 1800s, USPS must determine
the likely intended recipient when mail pieces are
addressed to entities with confusingly similar names:
When two firms that have used the same or
confusingly similar names and mailing
addresses enter conflicting orders at the post
office for the delivery of the same mail,
delivery will be made to the firm that is the
most likely recipient intended by the senders.
R. Michael Joyce, P.S. Docket No. MD 95-175,
June 14, 1995; see Vol. I, Opinions of the
Solicitor of the Post Office Department, p. 860
(1883).
Stricklin and Moody, MD 98-248 (P.S.D. July 15,
1998). The question presented is one of determining
who is “likely intended by the sender for delivery” of
the mail piece in question. Id.
26. In its operations manual, USPS has
memorialized the rule of these precedents:
Unless persons with similar names adopt
some means to distinguish their mail, a
postmaster must use judgment in making
delivery.
Postal Operations Manual §611.2 (captioned
“Delivery to Persons With Similar Names”).
62a

27. “A person receiving mail not intended for him
or her must promptly return it to the Post Office.” Id.
§611.3. In cases of confusingly similar names, “if
either party receives mail that belongs to the other,
they are to promptly forward it to the proper party.”
Stricklin and Moody, MD 98-248 (P.S.D. July 15,
1998).
28. In its operations manual, USPS limits the
ability to file change-of-address requests for Post
Office Boxes:
Customers may file change-of-address orders,
as follows:
a. Organizations. Only the PO Box customer
or authorized representatives of the
organization listed on the PS Form 1093 may
file
change-of-address
orders.
The
organization is responsible for forwarding
mail to other persons receiving mail at the
box.
Postal Operations Manual §841.751 (captioned “Who
May File”).
29. Constructive trusts are a flexible remedial
device used to force restitution in order to prevent
unjust enrichment, even if the inequitable conduct
falls short of fraud. Under the law of both Illinois and
the District of Columbia, the equitable remedy of a
constructive trust is available not only for more
culpable inequities (e.g., embezzlement, conversion,
fraud, duress), but also for mere mistake. Hertz v.
Klavan, 374 A.2d 871, 873 (D.C. 1977); Suttles v.
Vogel, 126 Ill.2d 186, 193-94, 533 N.E.2d 901, 904-05
(Ill. 1988).
FACTUAL BACKGROUND
30. This case involves one aspect – mail – of an
63a

ongoing wider dispute by EFc4 and its current
directors against the network of Eagle-themed
conservative educational, advocacy, and policy groups
that Phyllis Schlafly created during more than fifty
years of public service.
Status Quo Prior to Takeover Attempt by a
Faction of EFc4’s Board
31. Since the 1960s, Mrs. Schlafly branded her
educational, advocacy, and policy groups and their
activities with the “Eagle,” including the formation of
ETF in 1967. Over the next 50 years, she added
numerous Eagle entities – some incorporated, some
not – including EFc4 (1975) and the largest Eagle
entity, EFc3 (1981).
32. ETF publishes The Phyllis Schlafly Report
and, until October 2016, managed mail, donation
solicitation services, online content, and other “back
office” functions for all of the “Eagle” entities, which
ETF continues to do for all but EFc4. All of Mrs.
Schlafly’s Eagle entities functioned in consonance
from 1967 until 2016, and ETF’s back-office functions
included sorting and routing the mail addressed to
“Eagle Forum” at the Alton, Illinois, address used by
all Eagle entities.
Takeover Attempt by a Faction of EFc4’s Board
33. In April 2016, six of EFc4’s directors secretly
agreed among themselves to try to take control of
EFc4, based in part on their holding political and
social positions dissonant with Mrs. Schlafly and the
other Eagle entities.
34. On April 11, 2016, the six EFc4 directors held
an unprecedented telephonic meeting to purport to
remove EFc4’s president and to remove Phyllis
Schlafly and John Schlafly from their longstanding
64a

authority over EFc4’s accounts and assets.
35. On April 10, 2016, in advance of that
telephonic meeting, Mrs. Schlafly wrote the six EFc4
directors to ask them to resign.
36. On August 16, 2016, Mrs. Schlafly released a
video recording and open letter formally and expressly
revoking any and all existing licenses that EFc4 held
to use her name, image, and likeness, as well as any
intellectual property under her control.
37. On October 20, 2016, in a dispute between
some of the parties here, an Illinois state court’s
temporary restraining order (“TRO”) temporarily
transferred interim control of EFc4 to six directors of
EFc4’s board.
Disputed Mail
38. As referenced in the USPS administrative
decisions, the disputed mail is addressed to “Eagle
Forum” at EFc3’s and ETF’s address in Alton, Illinois
(currently, currently, 322 State Street and P.O. Box
618); some of that disputed mail also includes “Phyllis
Schlafly” or “Attention: Phyllis Schlafly” in addition to
“Eagle Forum.”
39. In the aftermath of the USPS Order, however,
the disputed mail has widened to include other
permutations involving mail addressed to Plaintiffs’
street and Post Office Box addresses with an Eaglethemed addressee. For example, mail addressed to the
following addressees at Plaintiffs’ street and Post
Office Box addresses all were misdirected to EFc4:
Eagle Forum dba Eagle Accounts Payable; Eagle
Forum, Att’n John Schlafly; and Eagle Forum,
Education Desk; Eagle Forum Education & Legal

65a

Defense Fund.1
40. Some of the disputed mail consists of Business
Reply Envelopes (“BREs”), which are addressed to
“Eagle Forum, Attn: Phyllis Schlafly” at ETF’s Post
Office Box; ETF printed the BREs for supporters,
donors, and interested parties to use for return
correspondence to all Eagle entities affiliated with
ETF, with ETF’s understanding that ETF staff would
sort and allocate mail and donations properly in
accordance with the senders’ and donors’ intent.
41. Since October 24, 2017, ETF has been charged
for more than 24 pieces of business-reply mail that it
did not receive, presumably because these BREs were
diverted to EFc4.
42. On information and belief, which likely could
be proved with the opportunity for discovery, since its
current board took charge of EFc4 on or about October
20, 2016, EFc4 has obtained and retained donations
intended for EFc3 and ETF and otherwise not
intended for EFc4, including donations that donors
intended as tax deductible.
43. One envelope diverted to EFc4 had the
handwritten addressee “Eagle Forum” by an EFc3
vendor and transmitted an invoice to EFc3. The way
that the vendor addressed the envelope is consistent
with the presiding officer’s finding – not reversed by
the Judicial Officer – that “Eagle Forum” is
ambiguous with respect to distinguishing between
EFc4 and the other Eagle-themed entities that Mrs.
Schlafly founded. Eagle Forum and Schlafly, MD 17In listing these permutations, a comma means a line break
(e.g., “John Schlafly, Eagle Forum” refers to a two-line addressee,
with John Schlafly on the first line and Eagle Forum on the
second line).
1

66a

13 (P.S.D. Sept. 15, 2017).
44. Consistent with the “Updating Your
Information” section of Form 1093 – which provides
inter alia that “[t]he information on your PS Form
1093 must always be current” and “[a]s soon as any
information changes … you are responsible for
updating the information” – Mr. Schlafly filed a
corrected Form 1093 on September 18, 2017, which
USPS did not complete (as to the USPS portions of the
form) or stamp as filed until the morning of December
1, 2017. The updated Form 1093 indicates that John
Schlafly is the USPS customer or authorized
representative on the Form 1093 (the “boxholder”).
45. On or about December 27, 2017, ETF renewed
its contract with USPS for Post Office Box 618, with
an effective date of January 1, 2018.
46. USPS’s human and computer-aided mailsorting and mail-directing systems are neither
designed to nor capable of accurately sorting mail
with overlapping, similar addressees, such as the
examples in Paragraph 39; these systems will
misdeliver the mail when presented with such
addressees.
EFc3’s Use of “Eagle Forum” and Other Reasons
that Mail Addressed to “Eagle Forum” Likely
Would Not Be Intended for EFc4
47. Defendants EFc4 and USPS acknowledged in
the USPS proceedings that the name “Eagle Forum”
could refer to “any of Mrs. Schlafly’s organizations,
including Eagle Trust, Eagle Forum, and Eagle
Forum Education and Legal Defense Fund” (i.e., ETF,
EFc4, and EFc3, respectively). Eagle Forum and
Schlafly, MD 17-13 (P.S.D. Sept. 15, 2017).
48. EFc3 is routinely called “Eagle Forum.” See,
67a

e.g., Texas Office of Attorney General, AG Paxton
Thanks 42 Congressional Members, 15 States,
Bioethics Expert, and Eagle Forum for Filing Amicus
Briefs in Support of Texas’ Fight to Defund Planned
Parenthood (Aug. 15, 2017) (using “Eagle Forum” to
refer to EFc3); Eldred v. Ashcroft, 255 F.3d 849, 853
(D.C. Cir. 2001) (same) (Sentelle, J., dissenting from
denial of rehearing en banc); Miller v. Davis, No. 155880, 2015 U.S. App. LEXIS 23060 (6th Cir. Aug. 26,
2015) (same); Planned Parenthood of Kan. & Mid-Mo.
v. Moser, No. 11-3235 (10th Cir. Oct. 24, 2011) (same);
Kaili Joy Gray, Phyllis Schlafly Knows Who Is
Destroying America (Pregnant Women With Jobs,
Duh), WONKETTE (Dec. 5, 2014) (same).
49. Before Mrs. Schlafly asked the rogue EFc4
directors to resign, the use of EFc3’s name – i.e., the
“Eagle Forum” name by which EFc3 is known –
together with EFc3’s address suggested that the
sender intended the mail piece for EFc3 at least as
much as the use of EFc4’s name together with EFc4’s
former address suggested that the sender intended
the mail piece for EFc4.
50. For BREs that ETF printed, the sender’s
intent in returning the business reply is derivative of
the printer’s intent (namely, that the BRE reach
ETF). The sender intends a BRE to reply to the
business that provided the BRE in the manner that
the printing business intended.
51. Finally, with respect to mail addressed not
merely to “Eagle Forum” but also with some form of
Mrs. Schlafly’s name included, the fact that Mrs.
Schlafly asked the rogue EFc4 directors to resign
make it highly unlikely that mail addressed in part to
Mrs. Schlafly would be intended to reach EFc4,
especially after Mrs. Schlafly revoked EFc4’s license
68a

to use her name.
COUNT I
LACK OF REASONED DECISIONMAKING FOR
MAIL ADDRESSED TO “EAGLE FORUM” AT
EFC3’S AND ETF’S ADDRESS
52. Plaintiffs incorporate Paragraphs 1-51 and
58-72 as if fully set forth herein.
53. The underlying USPS decision upheld by the
USPS Order acknowledges under the Heading
“Sender’s Intent” that the use of “Eagle Forum” is
ambiguous:
The parties agree that such mail addressed to
Eagle Forum can actually be intended for any
of Mrs. Schlafly’s organizations, including
Eagle Trust, Eagle Forum, and Eagle Forum
Education and Legal Defense Fund[.]
Eagle Forum and Schlafly, MD 17-13 (P.S.D. Sept. 15,
2017). But that decision and the USPS Order
affirming it go on to simply hold that EFc4 should
receive all mail addressed to Eagle Forum,
notwithstanding the admitted ambiguity of “Eagle
Forum” as an addressee. Id.; Eagle Forum and
Schlafly, MD 17-13 (P.S.D. Oct. 24, 2017).
54. To acknowledge that “Eagle Forum” is
ambiguous and then to find EFc4 nonetheless entitled
to mail addressed to “Eagle Forum,” based only on
that ambiguous name, is to beg the question of the
sender’s intent in addressing the mail piece. Failing
to resolve the ambiguity or even to attempt to resolve
the ambiguity by considering the address used and by
attempting to determine the most likely intended
recipient violates USPS precedent and the reasoneddecisionmaking standard.
55. For any given mail piece addressed to “Eagle
Forum” at ETF’s and EFc3’s address, it is more likely
69a

than not that the sender intended the mail to reach
ETF to sort and route to the appropriate Eagle entity
or that the sender intended EFc3 as the ultimate
recipient.
56. To the extent that a mail piece includes a
donation – monetary or otherwise – that the sender
intended as a tax-deductible donation, the mail piece
and donation were not intended for EFc4, for which
donations are not tax deductible to the donor. The
greater amount donated is intended for EFc3 rather
than for EFc4.
57. For the foregoing reasons, defendant USPS’s
administrative order fails to meet the standard for
reasoned decisionmaking and is arbitrary, capricious,
an abuse of discretion, not otherwise in accordance
with the law, in excess of authority granted by law,
ultra vires, and without observance of procedure
required by law.
COUNT II
LACK OF REASONED DECISIONMAKING FOR
MAIL ADDRESSED TO “EAGLE FORUM,
ATTN: PHYLLIS SCHLAFLY” AT EFC3’S AND
ETF’S ADDRESS
58. Plaintiffs incorporate Paragraphs 1-57 and
61-72 as if fully set forth herein.
59. Assuming arguendo that mail addressed to
“Eagle Forum” at EFc3’s and ETF’s address were not
more likely to have been intended for ETF to sort or
for EFc3 outright, it would nonetheless remain
unreasonable to treat mail address to “Eagle Forum,
Attn: Phyllis Schlafly” – or words to that effect
incorporating Mrs. Schlafly’s name into the address –
to be intended for EFc4 after the EFc4 broke faith
with Mrs. Schlafly in the lead-up to the disputed April
70a

11, 2016, telephonic board meeting and Mrs.
Schlafly’s letter dated April 10, 2016, asking the six
directors to resign and a fortiori after she revoked
EFc4’s license to use her and ETF’s intellectual
property – including her name, likeness, and works –
on August 16, 2016.
60. For the foregoing reasons, even assuming
arguendo that mail addressed to “Eagle Forum” were
not likely intended for plaintiffs EFc3 and ETF,
defendant USPS’s administrative order with respect
to mail addressed to “Eagle Forum, Attn: Phyllis
Schlafly” – or words to that effect incorporating Mrs.
Schlafly’s name into the address – would fail to meet
the standard for reasoned decisionmaking and would
be arbitrary, capricious, an abuse of discretion, not
otherwise in accordance with the law, in excess of
authority granted by law, ultra vires, and without
observance of procedure required by law.
COUNT III
FAILURE TO FOLLOW USPS’S PROHIBITION
ON SPLITTING MAIL ADDRESSED TO POST
OFFICE BOXES
61. Plaintiffs incorporate Paragraphs 1-60 and
68-72 as if fully set forth herein.
62. USPS does not allow everyone who receives
mail at a Post Office Box to file change-of-address
forms. Instead, only the customer or authorized
representative on the Form 1093 (i.e., the boxholder)
may file a change-of-address form, and the boxholder
must forward any mail addressed to other persons –
individuals or organizations – who have moved to
another address. Postal Operations Manual §841.751
(quoted in Paragraph 28).
63. Notwithstanding that its operations manual
71a

limits who may file a change-of-address form and
requires the boxholder to forward mail to others who
no longer wish to receive mail at the Post Office Box,
the USPS administrative decisions allowed EFc4 to
file a change of address with respect to Post Office Box
618 and to split the mail stream going to Post Office
Box 618.
64. Prior to USPS’s accepting the current Form
1093, see Paragraph 44, USPS hearing officers
might – or might not – have viewed the thenoperative Form 1093 as ambiguous and thus not
relevant to deciding the mail dispute presented to
USPS. (The USPS administrative proceeding declined
to address which access to and control of Post Office
Box 618.)
65. Whatever the ambiguity existed in Form 1093
filings before December 1, 2017, it is now clear that
plaintiff John Schlafly is the boxholder.
66. Even assuming arguendo that USPS correctly
analyzed the application of the facts and the law with
respect to mail addressed “Eagle Forum” at Plaintiffs’
street address, USPS nonetheless improperly
analyzed the facts and law with respect to Post Office
Box 618 by failing to follow Postal Operations Manual
§841.751, which requires that all mail addressed to
that Post Office Box go to that Post Office Box, with
the boxholder’s having the obligation to forward any
mail intended for others who no longer wish to receive
mail at that address.
67. For the foregoing reasons, defendant USPS’s
bifurcation of the mail directed to Post Office Box 618
fails to meet the standard for reasoned
decisionmaking and is arbitrary, capricious, an abuse
of discretion, not otherwise in accordance with the
72a

law, in excess of authority granted by law, ultra vires,
and without observance of procedure required by law.
COUNT IV
VIOLATION OF DUE PROCESS
68. Plaintiffs incorporate Paragraphs 1-67 and 72
as if fully set forth herein.
69. USPS’s administrative review provisions
violate due process by failing to provide for
reconsideration, based on after-arising grounds or
evidence (e.g., the revised Forum 1093 in Paragraph
44 and the updated rental period in Paragraph 45).
Once the new Form 1093 became operative, it would
have been clear not only that Plaintiffs – and not
EFc4 – are the sole, rightful customers for Post Office
Box 618, but also that USPS could not order the
bifurcation of the mail directed to Post Office Box 618
without first amending its rules.
70. Notwithstanding whatever time limits may
apply to direct review of agency action to promulgate
regulations, a party injured by application of those
regulations may seek judicial review of the claimed
deficiencies in a judicial action applying those
regulations.
71. For the foregoing reasons, defendant USPS’s
administrative review provisions fail to meet the
standard for reasoned decisionmaking and are
arbitrary, capricious, an abuse of discretion, not
otherwise in accordance with the law, in excess of
authority granted by law, ultra vires, and without
observance of procedure required by law.
PRAYER FOR RELIEF
72. WHEREFORE, Plaintiffs respectfully ask this
Court to grant the following relief.
73a

A. Pursuant to 28 U.S.C. §§1331, 1361, 1651(a),
2201-2202, the Acts of March 3, 1863, 12 Stat.
762, and June 25, 1936, 49 Stat. 1921 (as
amended), D.C. Code §11-501, Fed. R. Civ. Proc.
57, and this Court’s equitable powers, a
Declaratory Judgment that:
(i) Mail addressed to “Eagle Forum” at
plaintiffs ETF’s and EFc3’s addresses
(currently, 322 State Street and P.O. Box
618 in Alton, Illinois) is likely intended for
plaintiff ETF to sort and distribute to the
various Eagle entities and therefore should
be delivered to plaintiff ETF;
(ii) As the presiding officer held and the
Judicial Officer did not overturn, the
phrase “Eagle Forum” is ambiguous with
respect to its reference to plaintiff EFc3 visa-vis nonparty – and former defendant and
potential intervenor – EFc4.
B. Pursuant to 28 U.S.C. §§1331, 1361, 1651(a),
2202, the Acts of March 3, 1863, 12 Stat. 762, and
June 25, 1936, 49 Stat. 1921 (as amended), D.C.
Code §11-501, and this Court’s equitable powers,
an Order providing that:
(i) The USPS Judicial Officer’s Order directed
to the Postmaster in Alton, Illinois, and the
accompanying Postal Service Decision,
both dated October 24, 2017, are vacated;
and
(ii) Defendants USPS and Postmaster General
Brennan – together with all those acting
under those defendants’ control – are
ordered to deliver all mail addressed to
“Eagle Forum” at ETF’s and EFc3’s
74a

addresses (currently, 322 State Street and
P.O. Box 618 in Alton, Illinois) to plaintiff
ETF at the address listed on the mail piece
as the likely intended recipient to sort the
mail or, alternatively, to plaintiff EFc3 as
the likely intended ultimate recipient.
C. Pursuant to 28 U.S.C. §2412 and any other
applicable provisions of law or equity, award
Plaintiffs’ costs and reasonable attorneys’ fees.
D. Such other relief as may be just and proper.
Date Feb. 6, 2018 Respectfully submitted,
/s/
Lawrence J. Joseph
D.C. Bar No. 464777
1250 Connecticut Ave., NW, Ste 200
Washington, DC 20036-2643
Telephone: (202) 355-9452
Telecopier: (202) 318-2254
Email: ljoseph@larryjoseph.com
Counsel for Plaintiffs Eagle Trust
Fund, John F. Schlafly & Eagle
Forum Education & Legal Defense
Fund

75a

